<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Collins, Murkowski, 
Graham, Blunt, Daines, Moran, Durbin, Leahy, Reed, Tester, 
Udall, Schatz, and Baldwin.

                         DEPARTMENT OF DEFENSE

                  Defense Readiness and Budget Update

STATEMENT OF THE HON. JAMES N. MATTIS, SECRETARY OF 
            DEFENSE


               opening statement of senator thad cochran


    Senator Cochran. The Subcommittee on Defense Appropriations 
of the United States Senate will come to order.
    Today, we are receiving an update on military readiness and 
defense budget matters. We are pleased to welcome to the 
committee the Honorable James N. Mattis, Secretary of Defense, 
and General Joseph Dunford, Jr., Chairman of the Joint Chiefs 
of Staff.
    The fiscal year 2017 Department of Defense appropriations 
agreement has been approved by the other body, the House of 
Representatives, and I look forward to our completing work on 
that bill in the coming weeks. We are well into the fiscal 
year, and members of the subcommittee understand the importance 
of enacting defense appropriations legislation.
    As we complete our work on the 2017 defense appropriations 
agreement, we also recognize that a request for additional 
appropriations in fiscal year 2017 has been submitted to the 
Congress. We welcome comments from our panel, as well as on the 
submission for 2018.
    It is a distinct honor to have the Secretary of Defense 
before us in his first appearance as Secretary. I also am 
pleased to welcome General Dunford, Chairman of the Joint 
Chiefs of Staff, before the committee.
    We look forward to hearing more about your priorities and 
efforts to increase military readiness and strengthen the 
Department of Defense.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    The Subcommittee on Defense will come to order. Today we are 
receiving an update on military readiness and defense budget matters. 
We are pleased to welcome the Honorable James N. Mattis, Secretary of 
Defense and General Joseph F. Dunford, Jr., Chairman, Joint Chiefs of 
Staff.
    The fiscal year 2017 Department of Defense Appropriations agreement 
has been approved by the House of Representatives, and I look forward 
to the Senate completing work on that bill in the coming weeks. We are 
well into the fiscal year, and members of this Subcommittee understand 
the importance of enacting defense appropriations legislation.
    As we complete our work on the 2017 defense appropriations 
agreement, we also recognize that a request for additional 
appropriations in fiscal year 2017 has been submitted to Congress. We 
welcome comments from our panel on the budget amendment, as well as the 
submission for fiscal year 2018.
    It is a distinct honor to have the Secretary of Defense before us 
in his first appearance as Secretary. I am also pleased to welcome back 
the Chairman of the Joint Chiefs of Staff before the Subcommittee.
    We look forward to hearing more about your priorities and efforts 
to increase military readiness and strengthen the Department of 
Defense.
    I now turn to the Vice Chairman, Senator Durbin, for his opening 
remarks. Thank you.

    Senator Cochran. I now turn to the Vice Chairman, Senator 
Durbin, for any opening remarks he has.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thanks, Chairman Cochran. I am pleased to 
join you in welcoming Secretary Mattis and General Dunford. I 
have tremendous respect for both of these outstanding leaders, 
and give special welcome to Secretary Mattis in his first 
appearance before the Defense Subcommittee.
    Our Nation has been at war for nearly 16 years, and the 
toll of these conflicts can be measured in many ways. More than 
6,900 Americans have given their lives in Iraq and Afghanistan, 
more than 52,000 wounded. Our VA clinics and hospitals are 
serving more than 2.5 million veterans of these wars. Our 
taxpayers have provided $1.8 trillion to support the men and 
women who continue to serve overseas.
    It is not surprising we find our Armed Forces are currently 
under strain, but the evidence is mounting that it is not 
necessarily a decade and a half of war that is straining our 
military, but instead, a self-inflicted congressional wound, 
called ``sequestration.''
    Sequestration cuts in 2013 eliminated $35 billion from the 
Department of Defense's base budget virtually overnight. The 
shockwave of these cuts, which were never ever supposed to 
happen, rippled through the training, maintenance, and 
readiness of our military such that the military Services have 
estimated it will take until nearly 2020 to fully recover from 
sequestration.
    We could tick off through sequestration's impact the jobs 
and our economic growth just as easily, because it hit just as 
hard on domestic spending.
    The Administration has proposed $30 billion in additional 
defense spending, $25 billion to build readiness, $5 billion to 
increase spending on Afghanistan, and a counter ISIL (Islamic 
State of Iraq and the Levant) campaign.
    I have four concerns. First, their proposal appears to do 
very little to restore readiness of our Armed Forces in the 
short term. Congress had already addressed $5 billion of the 
requested funds in the pending defense appropriations bill.
    Of the remaining funding, only about $8 billion--$8 
billion--is for near term training and maintenance. In 
addition, we are not being told this package will accelerate 
the time line for the services to fully recover their 
readiness.
    Number two. The $5 billion in overseas contingency 
operations funding is being requested without a strategy to 
support it. In fact, the President's new counter ISIL strategy 
may not be presented to Congress until May of this year.
    Secretary Mattis and General Dunford, I hope you can 
provide insights on what this strategy may be. What are we 
getting ready for? What are the priorities? That is not a hard 
question. It is an important question if we are being asked to 
appropriate this money. In short, it is a readiness package the 
Department says will not improve readiness and a war request 
disconnected from a strategy.
    Third. The Administration's package proposes $18 billion in 
cuts to non-defense programs to offset the increased military 
spending. The Administration has provided no detail on these 
cuts, but we all know what is on the chopping block.
    The White House is already proposing extremely reckless 
cuts to agencies like the State Department for the next year, 
which would jeopardize our Nation's ability to deal with crises 
without resorting to arms.
    I wish the White House had listened to then General Jim 
Mattis' views on the State Department. In 2013, as Commander of 
the U.S. Central Command, General Mattis stated ``If you don't 
fund the State Department fully, then I need to buy more 
ammunition ultimately.''
    The harm will go well beyond hurting our national security. 
Some of the cuts could cut into medical research, something 
that many of us on this panel feel very strongly about. 
Education, and everything in between.
    Our Armed Forces depend on a healthy, well-educated 
American workforce to sign up and serve our country. Cutting 
these programs will ultimately shrink the pool of Americans who 
can serve in our military, making these proposals today and in 
the long term very shortsighted.
    Finally, the Administration does nothing about 
sequestration. If Congress enacted this package tomorrow as is, 
OMB (Office of Management and Budget) had submitted it, it 
would trigger an immediate across the board sequestration of 
military programs. Can you believe it? More money, triggering a 
cut.
    OMB is asking to spend more than the law allows for 
defense, but it did not ask for us to change this underlying 
mendacious sequestration law. OMB is asking to spend more than 
the law allows, and we need to do something about it.
    Previous administrations did this frequently when they made 
these requests, but not this Administration. President Trump's 
proposal is incomplete, and it really does not address this 
issue in a serious way.
    Mr. Secretary, General Dunford, we all recognize there are 
holes in our Armed Forces that need to be fixed. I hope you go 
further in your testimony to explain these.
    Congress needs to know why you think this is a spending 
package that needs to be passed, considering the problems with 
this proposal, the cuts to domestic and diplomatic spending, 
the lack of a new counter ISIL strategy, the modest funding for 
increased training, and the lack of any fix to sequestration. 
It appears that Congress may need to consider significant 
changes.
    Let me say as I close, one floor up, I am in the Judiciary 
Committee on a hearing with the Supreme Court nominee, and I 
will be on the docket in just a few minutes. Excuse me if I am 
gone. I promise to return.
    Senator Cochran. Thank you, Senator. Welcome to the 
committee. We appreciate you being here. We will now hear from 
the Secretary of Defense, James Mattis.

               SUMMARY STATEMENT OF HON. JAMES N. MATTIS

    Secretary Mattis. Chairman Cochran, Vice Chairman Durbin, 
distinguished Senators: I appreciate the opportunity to testify 
today in support of the President's request for additional 
funding and any other matters of interest to the committee.
    Mr. Chairman, I request the committee accept my statement 
for the record.
    Senator Cochran. Without objection.
    Secretary Mattis. Thank you, sir. As you know, the 
President is committed to strengthening our military. The 
security situation facing our country has become more 
challenging; the looming threats have outstripped the level of 
resources we have been allocating to defense.
    We in the Department are keenly aware of the sacrifices 
made by the American people in the form of the additional $30 
billion budget request. We take seriously the responsibility to 
spend this money wisely, and to enhance the protection of our 
Nation against emerging threats.
    We also recognize that hesitation now to invest in defense 
would deepen the strategic mismatch between our future security 
and the military means to protect our people and freedoms.
    Our military must ensure that the President and our 
diplomats always negotiate from a position of strength. Global 
threats require a global response, applying the full weight of 
our own and our allies' powers, allies which are also 
increasing their defense outlays.
    Diplomatic solutions will remain our preferred options, 
although we cannot deny the role of our military in setting the 
conditions for diplomatic progress. Military deterrence is only 
credible if military strength is sufficiently formidable that 
our allies can confidently align with us in tempering 
adversaries' designs.
    We must look reality in the eye. We see Russia and China 
seeking veto power over the economic, diplomatic, and security 
decisions of nations on their periphery.
    Terrorist groups murder the innocent and threaten peace in 
many regions, and target us. North Korea's reckless rhetoric 
and provocative actions continue, despite United Nations' 
censure and sanctions.
    This situation calls for our Department to maintain a safe 
and secure nuclear deterrent and a decisive conventional force 
that can also fight irregular enemies, since our military must 
be able to counter all threats facing us.
    I am here today to request your support for the additional 
$30 billion request for fiscal year 2017. General Dunford and I 
will outline what this additional funding will do for our 
Nation's defense, but the reason we are appearing here cannot 
be considered in isolation.
    While some might prefer a larger amount, several compelling 
factors convinced us to limit the request. It is late in this 
fiscal year, and the $30 billion is the number we believe we 
can execute responsibly.
    In concert with this budget request, we must also have 
continuity of effort that is not possible under another 
continuing resolution. Only a fiscal year 2017 appropriations 
bill can permit us to spend the American taxpayers' money 
judicially, and start us on the long road back to military 
readiness, and ensure we can fight effectively.
    I must note there are specific readiness gaps across our 
forces, which I would prefer to address in closed session, so 
as not to embolden our enemies.
    The request before you represents the first step in a 
three-phased multiyear effort to restore readiness. Phase one 
is this year's budget appropriation, including the $30 billion 
request for additional appropriations for fiscal year 2017, to 
get our aircraft back in the air, our ships back to sea, and 
our troops back in the field with refurbished or new equipment 
and proper training. We based this request on a realistic 
appreciation of the capacity we need to fight and win on the 
battlefield.
    Phase two starts with our fiscal year 2018 budget request 
to balance the defense program. This funding will allow us to 
acquire capabilities we do not have or cannot execute this 
fiscal year, and it will allow us to adapt to the changing 
character of war by providing cyber, space, and electronic 
warfare capabilities.
    Phase three looks beyond 2018. We will work with the 
Congress and this committee to integrate our fiscal year 2019 
to 2023 budget within a coherent strategy.
    To ensure our strategy is fit for its time, we have 
initiated the Defense Strategy Review directed by this Congress 
to reimagine our strategic concepts in all areas, and we will 
complete the review by this fall to ensure a new framework 
informs our long-term planning.
    I know we will have to make hard choices. With the help of 
the Congress, I believe we can build a force that is more 
lethal without placing undue burden on the American economy. 
This will require a sustained commitment from the Congress in 
the form of additional funding and regular on time budgets.
    Thank you for your strong support and for ensuring our 
troops have the resources and equipment they need to fight and 
win on the battlefield.
    I pledge to collaborate closely with you for the defense of 
our Nation and to keep our Armed Forces second to none, and I 
welcome your questions. Thank you.
    [The statement follows:]
               Prepared Statement of Hon. James N. Mattis
    Chairman Cochran, Vice Chairman Durbin, distinguished Senators, I 
appreciate the opportunity to testify today in support of the 
President's request for additional funding and other matters of 
interest to the committee. Mr. Chairman, I request the committee accept 
my statement for the record.
    As you know, the President is committed to strengthening our 
military. The security situation facing our country has become more 
challenging; the looming threats have outstripped the level of 
resources we have been allocating to defense.
    I wish to state at the outset of this hearing that we in the 
Department of Defense are keenly aware of the sacrifices made by the 
American people in the form of the additional $30 billion budget 
request in fiscal year 2017. We take seriously the responsibility to 
spend wisely this money to enhance the protection of our Nation against 
emerging threats. This increase in funding will help address the 
worsening security situation confronting us around the globe. We must 
recognize that hesitation now to invest in defense would deepen the 
strategic mismatch between our future security and the military means 
to protect our people and freedoms.
    Our military must ensure that the President and our diplomats 
always negotiate from a position of strength. Global threats require a 
global response applying the full weight of our own and our Allies' 
power, Allies which are also increasing their defense outlays.
    Diplomatic solutions will remain our preferred options but we 
cannot deny the role of our military in setting the conditions for 
diplomatic progress: military deterrence is only credible if the 
military strength is sufficiently formidable that Allies can 
confidently align with us in tempering adversaries' designs.
    We must look reality in the eye: we see Russia and China seeking 
veto power over the economic, diplomatic, and security decisions of 
nations on their periphery. Terrorist groups murder the innocent and 
threaten peace in many regions and target us. North Korea's reckless 
rhetoric and provocative actions continue despite United Nations 
censure and sanctions. This situation calls for our Department to 
maintain a safe and secure nuclear deterrent and a decisive 
conventional force that can also fight irregular enemies, since our 
military must be able to counter all threats facing us.
    I'm here today to request your support for the additional $30 
billion request for fiscal year 2017. General Dunford and I will 
outline what this additional funding will do for our Nation's defense. 
But the reason we are appearing here cannot be considered in isolation. 
While some might prefer a larger amount, several compelling factors 
convinced us to limit the request. It is late in this fiscal year and 
this $30 billion is the number we believe we can execute responsibly. 
We want to do everything we can to ensure wise allocation of these 
funds. In concert with this budget request, we must also have 
continuity of effort that is not possible under another continuing 
resolution. Only an fiscal year 2017 appropriations bill can permit us 
to spend the American taxpayers' money judiciously and start us on the 
long road back to military readiness to ensure we can fight 
effectively. The last 6 years of sequester's effects, budget cuts, and 
repeated Continuing Resolutions have damaged our readiness to a degree 
that will take time to recover.
    The request before you represents the first step in a three-phased 
multi-year effort to restore readiness. In fiscal year 2017, we will 
fill in readiness gaps that must be initiated this year. In fiscal year 
2018, we will seek to balance the force with a budget that precludes 
further damage stemming from Continuing Resolutions and sequestration. 
By fiscal year 2019, I expect our force growth will be on track and 
sustained with high quality troops supported by equipment programs, 
permitting us to adapt to the changing character of modern war.
    I must note there are specific readiness gaps across our forces, 
which I prefer to address in closed session so as not to embolden our 
enemies.
    Phase one is this year's defense appropriation, including the $30 
billion request for additional appropriations for fiscal year 2017, to 
get our aircraft back in the air, our ships back to sea, and our troops 
back in the field with refurbished or new equipment and proper 
training. This is a necessary investment to ensure our military is 
ready to fight today.
    The request represents a consolidated effort to fill current 
warfighting readiness needs, including $25 billion of additional 
funding for maintenance, spare parts, training time, flying hours, 
munitions stocks, and manpower, as well as funding to support the 
Services' highest-priority unfunded requirements. The request also 
includes $5 billion to accelerate the campaign to defeat ISIS, address 
emerging requirements for Operation Freedom's Sentinel, and provide 
support to other global counterterrorism operations. We are confident 
we can efficiently allocate this increase and spend it responsibly in 
the months remaining in the fiscal year.
    Consistent with my initial budget guidance to the Department, we 
based this request on a realistic appreciation of the capacity we need 
to fight and win on the battlefield. Beginning to fill readiness needs 
and field a ready joint force in the future requires more than just 
closing a gap in Operation and Maintenance funding in fiscal year 2017. 
The reality is that we cannot repair our way out of this problem: we 
cannot stay ready only with the equipment we have today, much of which 
is hard used and beyond its useful life. In some cases, we need to 
acquire new equipment to increase the inventory of forces that are 
ready to deploy. I have imposed rigorous oversight of the budget 
process, ensuring the Services have tied their requests solely to 
readiness needs--and I have a personal responsibility to discipline our 
requests moving forward.
  --The Army's request includes funding for the additional 28,000 
        Soldiers approved in the fiscal year 2017 National Defense 
        Authorization Act; for additional training and flight hours 
        across all components; for munitions and ammunition production 
        capabilities; and for equipment and modernization, including 
        aircraft, unmanned aerial systems, and air defense systems.
  --The Navy's request includes funding for the additional 3,592 
        Sailors and 2,426 Marines. It includes funding for increases in 
        ship maintenance costs; for pilot training, including 
        additional tactical and student flight hours; for additional 
        aviation spare and repair parts; for an additional 24 F/A-18 E/
        F Super Hornet aircraft to support continuing need for combat 
        aircraft; and for ground combat and communications equipment 
        for Marine Corps operating forces.
  --The Air Force's request includes funding for the additional 4,000 
        Airmen approved in the fiscal year 2017 NDAA. It includes 
        funding for increasing the number of pilots in the Air Force; 
        for sustainment of weapons systems to increase aircraft 
        availability; for additional F-35A, MC-130J, and HC-130J 
        aircraft; for modification, upgrades, and life-extension 
        efforts on F-15, F-16, and other aircraft; and for the support 
        of flight line and maintenance operations, including 
        investments in facility operations, restoration, and 
        modernization.
    Phase two starts with our fiscal year 2018 budget request to 
balance the defense program and prepare for sustained growth. This 
funding will allow us to acquire capabilities we do not have or cannot 
execute this year, and it will allow us to adapt to the changing 
character of war by providing cyber, space, and electronic warfare 
capabilities.
    The Department will work in concert with congressional leaders to 
reverse sequestration. This would return Congress to its active 
oversight role instead of relying on non-strategic and self-destructive 
cuts. Failure to reverse sequestration would bring about the need to 
recalibrate our approach to asserting U.S. influence around the world.
    Phase three looks beyond fiscal year 2018. We will work with the 
Congress and this committee to integrate our fiscal year 2019-2023 
budget request within a coherent strategy. We recognize we must address 
urgent threats like North Korea and violent jihadist terrorists in 
transnational organizations. But we cannot focus solely on urgent 
threats when other countries with far greater potential to threaten our 
future security continue to expand their military capability.
    To ensure our strategy is fit for its time, we have initiated the 
Defense Strategy Review directed by the Congress to reimagine our 
strategic concepts in all areas. We will complete the review by this 
fall to ensure a new framework informs our long-term planning, matches 
resources to our strategic commitments, and avoids the hubris that we 
can predict the threats of the future. We will also work with the 
President and the Congress to ensure the budget we present is 
sustainable and that it provides the Commander-in-Chief with viable 
military options.
    We already know we face a dilemma between increasing personnel end 
strength and force structure on the one hand, and investing in 
equipment as well as research and development on the other hand. I know 
we will have to make hard choices as we develop our new defense 
strategy and shape the fiscal year 2019-2023 defense program. With the 
help of Congress, I believe we can build a force that is more lethal 
without placing undue burden on the American economy. This will require 
sustained commitment from the Congress in the form of additional 
funding and regular, on-time appropriations informed by a common set of 
assumptions.
    I have examined each Service's requirements and recommendations, 
and I am working with the Military Department Secretaries, our Service 
Chiefs, and the Chairman of the Joint Chiefs of Staff to develop 
recommendations on current and future end strength plans consistent 
with the President's emerging national security strategy.
    Thank you for your strong support and for ensuring our troops have 
the resources and equipment they need to fight and win on the 
battlefield. I pledge to collaborate closely with you for the defense 
of our Nation and to keep our Armed Forces second-to-none. I welcome 
your questions.

    Senator Cochran. Thank you, Mr. Secretary. General Joseph 
Dunford, Chairman of the Joint Chiefs of Staff, is here today. 
We welcome you, and ask you to make any opening statement you 
wish.
STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., USMC, 
            CHAIRMAN, JOINT CHIEFS OF STAFF
    General Dunford. Chairman Cochran, Ranking Member Durbin, 
distinguished members of the committee, thank you for the 
opportunity to join General Mattis in appearing before you. 
Chairman, I have also submitted a written statement that I 
would request you accept for the record.
    Senator Cochran. It will be printed in the record. Thank 
you.
    General Dunford. I am honored to represent your men and 
women in uniform, and it is because of our soldiers, sailors, 
airmen, marines, and your support that I can begin this morning 
by saying with confidence that your Joint Forces can defend the 
homeland and our way of life. We can meet our alliance 
commitments, and maintain an overall competitive advantage over 
any potential adversary.
    I think that is an important point to begin with, and a 
point that should not be lost on our adversaries, our allies 
and partners, or on the American people.
    However, while we have a competitive advantage today, 
sustained operational commitments, budget instability, and 
advances by our adversaries have eroded that advantage. Fifteen 
years of war have also taken a toll on our people and our 
equipment. Many of our men and women continue to deploy as much 
as they are home.
    Similarly, our platforms, weapons, and equipment are 
showing signs of wear. In many cases, we have far exceeded the 
planned service life for our vehicles, our aircraft, and our 
ships.
    Additionally, 8 years of continuing resolutions and the 
absence of predictable funding has forced the Department to 
prioritize near term readiness at the expense of modernization 
and advanced capability development.
    We now face what has been described as the ``bow wave'' of 
modernization requirements for both our nuclear and our 
conventional forces. Meanwhile, potential adversaries have 
accelerated capability development and they challenge our 
advantage in critical areas such as space, cyber, electronic 
warfare, and missile defense. It is important that we reverse 
that trend.
    The fiscal year 2017 budget request is a much needed first 
step. It helps the Joint Forces address our most urgent near 
term readiness concerns by funding current operations, 
addressing personnel shortfalls, resourcing training, and 
improving our maintenance. The additional request for resources 
also allows us to procure limited quantities of needed 
equipment to fill holes in our deploying units.
    Looking forward in fiscal year 2018 and beyond, sufficient 
and predictable funding will be required to fully recover 
readiness, balance our inventory of capabilities, and maintain 
our competitive advantage.
    Thank you once again for the opportunity to appear before 
you this morning, and I look forward to your questions.
    [The statement follows:]
           Prepared Statement of General Joseph Dunford, Jr.
    Chairman Cochran, Ranking Member Durbin, distinguished Senators of 
this committee, thank you for the opportunity to join Secretary Mattis 
in appearing before you today.
    I am honored to represent the men and women of the Joint Force and 
want to begin by assuring you that our Joint Force is the most capable 
military in the world today. We can defend the Homeland, meet our 
alliance commitments, and maintain a competitive advantage over any 
adversary we face. That is an important point that should not be lost 
on our adversaries, our Allies and partners, or the American people.
    I am confident in saying this for three fundamental reasons. First, 
Congress has provided our Service Members with support for the last 15 
years of war. Second, the creative and talented professionals in 
American industry continue to deliver world-class warfighting solutions 
to our force. Third, and most importantly, the extraordinary young men 
and women who serve our country in uniform make the Joint Force the 
most capable military in the world.
    However, while we have a competitive advantage today, sustained 
operational commitments, budgetary instability, and advances by our 
adversaries have eroded our competitive advantage.
                         strategic environment
    In today's strategic environment five key challenges--Russia, 
China, Iran, North Korea, and Violent Extremist Organizations--most 
clearly represent the challenges facing the Joint Force. They serve as 
a benchmark for Joint Force posture, the size of the force, capability 
development, and risk management.
    Over the past several years, Russia has invested in a full-range of 
capabilities designed to limit our ability to project power and meet 
our alliance commitments. These include long-range conventional strike, 
cyber, space, electronic warfare, and undersea capabilities. Russia is 
also modernizing nearly all elements of its nuclear force. These 
capabilities allow Russia to counter U.S. and NATO power projection and 
undermine the credibility of the NATO alliance.
    Similarly, China has embarked on a significant program to modernize 
and expand strategic and conventional military capabilities. They have 
expanded their nuclear enterprise and made investments in power 
projection, space, cyber, and ballistic missiles. China is also 
investing heavily in 5th generation fighters, air-to-air missiles, and 
air defense systems to limit our ability to project power in the 
Pacific, operate freely, and meet our alliance commitments.
    North Korea's two nuclear tests in 2016, combined with continued 
efforts to build a viable nuclear-capable ballistic missile threaten 
the security of the homeland and our Allies. Over the past year, North 
Korea conducted 38 missile tests, an 81 percent increase from the 
previous year. Moreover, North Korea has demonstrated a willingness to 
use malicious cyber tools against governments and industry. These 
actions destabilize the region and pose an increasing threat to U.S. 
forces and our allies.
    Iran continues to support international terrorist organizations, 
actively seeks to destabilize its neighbors, and employs naval 
capabilities that threaten freedom of navigation. At the same time, 
they are modernizing an array of ballistic missiles, space, cyber, 
maritime, and cruise missile capabilities.
    Finally, Violent Extremist Organizations such as ISIS and al Qaida 
remain a threat to the homeland, our allies, and our way of life. 
Violent extremism is fundamentally a transregional threat and 
generational struggle that requires the Joint Force to work with USG 
and coalition partners to disrupt external attacks and dismantle their 
capabilities wherever they emerge.
    A review of the 4+1 framework indicates that the Joint Force 
requires a balanced inventory of capabilities and capacities to act 
decisively across the range of military operations. As a Nation that 
both thinks and acts globally, we cannot choose between a force that 
can address ISIS and other Violent Extremist Organizations, and one 
that can deter and defeat state actors with a full range of 
capabilities. Nor do we have the luxury of choosing between meeting our 
current operational requirements and developing capabilities that we 
will need to meet tomorrow's challenges.
                     state of the joint force today
    Today, the Joint Force is challenged to meet operational 
requirements and sustain investment in capabilities to preserve our 
competitive advantage. Examples in each of the Services highlight these 
challenges.
    Based on current operational demand and budget instability, the 
Army has been forced to prioritize near-term readiness at the expense 
of future readiness and modernization. As a result, the Army faces a 
shortage of critical capabilities in armor, air defense, artillery, and 
aviation. These deficiencies are exacerbated by manpower shortfalls and 
a lack of training resources. Consequently, the Army is limited in its 
ability to man, train, and equip fully-ready Brigade Combat Teams 
(BCT).
    For similar reasons, the Navy faces readiness challenges in both 
ships and aircraft. Operational requirements and capacity constraints 
in shipyards and aircraft depots have increased the time and cost 
required to conduct major repairs. Maintenance delays, low stocks of 
spare parts, lack of training ordinance, and aging infrastructure limit 
the Navy's ability to conduct integrated training. As a result, the 
Navy is limited in its ability to meet the demand for maritime 
capability.
    The Air Force is also challenged to balance current operational 
demand and invest for the future. Today, the Air Force has a shortfall 
of almost 1,500 pilots, including 800 fighter pilots, and more than 
3,400 maintainers across the active, guard, and reserve. They lack 
sufficient resources to adequately support both 4th and 5th generation 
training. And they have delayed investment in 4th generation aircraft 
modifications while limiting the fielding of 5th generation strike-
fighters. The result is fewer trained pilots available to deploy, over 
tasked and aging aircraft, and delays in key modernization programs.
    Over the last several years, the Marine Corps has been forced to 
delay planned investments in infrastructure, Command and Control, and 
ground systems required to build, train, and launch combat ready 
forces. Today, the Marine Corps lacks sufficient Ready Basic Aircraft 
for training and deployments and has delayed procurement of the F-35, 
CH-53K, MV-22, and KC-130J aircraft. These delayed investments limit 
the Marine Corps' strategic flexibility and inhibits its ability to 
meet operational demands.
    These readiness challenges are exacerbated by the high operational 
tempo we continue to maintain. Particular stress is found in high-
demand/low-density specialties such as missile defense systems, naval 
expeditionary forces, special operations forces, global precision 
strike units, and cyber forces. And, over the past 2 years, munitions 
expenditures in ongoing operations against Violent Extremist 
Organizations have exacerbated existing shortfalls.
    Reversing these trends and ensuring a ready Joint Force is my 
number one priority as Chairman. To meet Combatant Command demand, and 
provide viable options to the President and Secretary of Defense, the 
Joint Force must develop and maintain Comprehensive Joint Readiness: 
the ability of the Joint Force to deploy, employ, and sustain itself 
and to maintain the flexibility to transition from one crisis to 
another, across the range of military operations.
                   fiscal year 2017 budget priorities
    The fiscal year 2017 request for additional appropriations helps 
the Joint Force address our most urgent near-term readiness concerns by 
funding current operations, addressing personnel shortfalls, resourcing 
full-spectrum training, and improving maintenance. It also addresses 
deferred modernization in a way that can be executed responsibly within 
the remainder of fiscal year 2017.
    The additional fiscal year 2017 request includes critical funding 
for overseas contingency operations, accelerating the plan to defeat 
the Islamic State and funding emerging requirements for operations in 
Iraq and Syria. It is critical that we not lose momentum in our 
operations against ISIS.
    The request addresses critical personnel shortfalls in all Services 
by providing $5.7 billion for targeted growth. This growth allows the 
Army to fill gaps in both operational units and in the generating 
force, convert one Infantry BCT to an Armor BCT, enhance fires 
capability, and build two security force assistance brigades. 
Additional Navy personnel will mitigate the backlog in shipyards and 
support surface ship and submarine deployments. The Air Force will 
address shortfalls in critical skill sets such as nuclear, cyber, 
pilots, maintainers, and remotely piloted aircraft. The Marines will 
fill shortfalls in operational units and meet emerging requirements 
such as cyberspace operations. The resources that underpin this growth 
must be sustained in future budgets to enable full-spectrum readiness 
recovery.
    The additional fiscal year 2017 request also enhances full-spectrum 
training across the force. With these funds, the Army will increase 
home station training and Combat Training Center rotations that support 
armored brigades rotating to Korea and Europe. The Navy will provide 
flying hours that support training to enhance aviation readiness and 
precludes curtailing flight operations in the second half of fiscal 
year 2017. The Air Force will invest in training required to improve 
4th and 5th generation warfighting capability. The Marine Corps will 
focus on aviation and ground training exercises to improve combined 
arms proficiency for operations across the spectrum of conflict. 
Funding for training also enables Combatant Commands to execute 
critical training for Counter-Weapons of Mass Destruction and Special 
Operations Forces missions.
    Maintenance resources included in the additional fiscal year 2017 
request also improve readiness. The Army will increase maintenance for 
key ground and aviation systems, reducing time for overhaul and 
increasing the number of available systems to train and deploy. The 
Navy will fund maintenance and spare parts to accelerate flight line 
repairs and execute necessary depot maintenance. The Air Force will 
improve aviation depot maintenance and weapons systems sustainment, 
increasing the number of ready aircraft. The Marine Corps will increase 
the number of spares for crisis and contingency response.
    The request also allows the Joint Force to address deferred 
modernization through investments in tactical aircraft and ground 
combat vehicle. These investments support the Joint Force's readiness 
recovery by increasing the number of deployable aviation and ground 
units.
  impact of the fiscal year 2017 request for additional appropriations
    While not sufficient, in and of itself, to reverse the impacts of 
under investment over the last 5 years, the additional fiscal year 2017 
request yields improvements in near and mid-term warfighting readiness.
    Investment in personnel, training, maintenance and modernization 
help the Army restore critical warfighter readiness across BCTs, 
improve critical enabler shortfalls, and enhance training at home 
station and Combat Training Centers. By the end of fiscal year 2017, 
the Army anticipates an increase of three BCTs at the highest level of 
readiness. Additionally, with continued stable budgets, the Army can 
bring five additional BCTs to the highest level of readiness by the end 
of second quarter of fiscal year 2018.
    The Navy will be able increase amphibious capability and deploy 
five guided missile cruisers that would have otherwise remained in 
port. The Navy will also be able to fund maintenance for 14 surface 
ships, enabling them to go to sea to train and deploy on time, and 
equipped with modern communications and combat systems. Finally, Navy 
readiness is not just about the number of deployed ships. Fleet 
wholeness results from ensuring those ships are lethal, survivable and 
sustainable. That is why the Navy will invest in spare parts, 
munitions, and platform modernization and recapitalization required to 
sustain the fleet.
    The Air Force will arrest the downward readiness trend, addresses 
critical pilot shortfalls, and begin to recover from delayed 
procurement and modernization. End-strength investments allow the Air 
Force to fully man active and reserve component units and will help 
grow the pilot training pipeline to create over 1,400 new pilots each 
year, including 335 new fighter pilots per year. It will also improve 
cyber resiliency and revitalize space and nuclear capacities, 
accelerate A-10, F-15, and F-16 aircraft modernization, and begin 
procurement of five additional F-35s. These investments begin to fill 
manpower shortages, increase full-spectrum training, replenish parts, 
and deliver more deployable combat capability to the field.
    The Marine Corps will address current readiness shortfalls, 
mitigate critical gaps in combat power, and enhance operating and 
generating force capacity. End-strength growth will fill gaps in 
critical specialties. Funding for the flying hour program will enable 
sufficient training for aircrews. Procurement of two MV-22s will 
enhance responsiveness of Special Purpose Marine Air-Ground Task Forces 
and drive down the cost of sustaining the MV-22 fleet. Purchase of 
munitions will begin to fill critical shortfalls. These investments 
improve flexibility and enable the Marine Corps to be better postured 
to support Combatant Commanders.
        priorities for investment in fiscal year 2018 and beyond
    The fiscal year 2017 request for additional resources provides 
needed investments in near and midterm readiness and addresses the 
Service's most urgent modernization requirements. However, sufficient 
and predictable funding is required to continue to improve readiness, 
balance the program, and sustainably grow the force to deliver a more 
capable and more lethal Joint Force in the years to come. Specific 
investment in fiscal year 2018, and beyond, is required to complete 
nuclear recapitalization, continue conventional modernization, and 
sustain dominance in all domains. These investments are required to 
place the Joint Force on a path toward restoring our eroded competitive 
advantage.
    Continuing to maintain a secure and effective nuclear deterrent is 
essential to defending the homeland. All three legs of our nuclear 
triad are approaching critical modernization decision points that 
require significant investment in time, money, and resources to 
execute. Over the coming decades DoD will replace its ballistic missile 
submarines, Inter-Continental Ballistic Missiles, strategic bombers, 
and Command and Control Centers.
    Conventional modernization also requires capital intensive 
investment in tactical aviation, shipbuilding, munitions, and ground 
tactical vehicles. We must ensure the right mix of 4th and 5th 
generation aircraft and preserve our ability to project power in anti-
access, area-denial environments. Recapitalization is needed to 
preserve a globally-present, modern, and agile Navy. Additional 
investment is required to develop new, highly capable munitions, and 
adapt our processes to make the most effective use of the inventory we 
currently have. Upgrades to ground tactical vehicles are necessary to 
improve mobility, lethality, and survivability. These investments 
ensure the Joint Force retains its ability to execute required missions 
against any potential adversary, across the range of military 
operations.
    Finally, we must continue investment to sustain Joint Force 
dominance in all domains. ISR, cyber, and space are essential to 
providing command and control to a geographically dispersed force. We 
rely on ISR to provide information to decision makers at all levels and 
must be able to do so in contested battlespace. To protect critical 
infrastructure and improve offensive cyber capability, we must continue 
to invest in our Cyber Mission Forces and their training, provide them 
with effective tools, and maintain a responsive, nimble cyber 
infrastructure. These investments are essential to maintaining our 
competitive advantage in rapidly changing domains.
                               conclusion
    Today, despite the challenges facing us, our Joint Force is the 
most capable military in the world. But the strategic landscape is 
changing and our investment in future capabilities, capacity, and 
readiness must keep pace to ensure our men and women in uniform never 
face a fair fight.

                               READINESS

    Senator Cochran. Thank you for your statements. Let me ask 
you about our time line and what are the pressures that we face 
in bringing this bill to the attention of all of our members of 
the committee and the Senate.
    In your judgment, what is the impact, and this is for both 
of you, if Congress does not approve the additional $5.1 
billion for overseas contingency operations? Would you have the 
funding flexibility to conduct an accelerated counter-ISIS 
fight, for example?
    Secretary Mattis. Chairman, obviously, we will keep the 
forces in the field at the top of their capability. That is not 
only a military obligation, it is a moral obligation, and we 
can continue the fight.
    The problem is it would eat into our readiness again and 
would deepen the hole that we are in, leaving us in an even 
worse situation, and it will cost even more to get out of it in 
the future.
    We have done this for several years now, where we have 
continued to maintain the operational tempo, but without the 
backdrop of sufficient readiness funds to keep the forces back 
here at home at the top of their game, it is going to worsen as 
we go on.
    Let me pass this to the chairman for his thoughts.
    General Dunford. Chairman, thank you. I think there are two 
things that we look to do moving forward. One is to accelerate 
our campaign, and the other is to position ourselves to seize 
opportunities, and from my perspective, not having the OCO 
(Overseas Contingency Operations) money will restrict our 
ability actually to accelerate the campaign and seize 
opportunities. We will lose some flexibility.
    As Secretary Mattis has said, we will make sure that those 
men and women who deploy in harm's way have the wherewithal to 
accomplish the mission, but what we will not be postured to do 
is have the flexibility needed for a very dynamic threatening 
enemy.

                                 RUSSIA

    Senator Cochran. Mr. Secretary, what is your assessment of 
the Russian aggression in Europe, and the investments that we 
will need to reassure our European allies of our ability to 
function?
    Secretary Mattis. Chairman, Russia has decided to become a 
strategic competitor with us, and as I mentioned in my opening 
statement, to try to achieve a veto authority over the 
diplomatic, economic, and security interests of the nations 
along their periphery.
    So, what we have to do is ensure that the NATO (North 
Atlantic Treaty Organization) Alliance stands firm, it stands 
united, and stands unambiguously for a unified response to any 
kind of Russian adventurism, such as we have seen in Crimea and 
the Ukraine, and with the mischief they are causing inside the 
elections in Europe that are ongoing.
    If we do not have the funding to maintain the reassurance 
initiative, then frankly the reassurance goes away. It is as if 
we are denying a reality that has been pretty revealed to us 
over these last several years.
    So, I strongly endorse the European Reassurance Initiative, 
and I noticed the NATO Alliance has reversed its reduced 
funding, and overall the funding has risen for the first time 
this last year. So, they are also on line to maintain their 
level of commitment.
    Senator Cochran. I now recognize the distinguished Senator, 
Mr. Durbin.

                          SUPPLEMENTAL REQUEST

    Senator Durbin. Thank you, Mr. Chairman. I asked my staff 
to explain this to me twice because I wanted to make sure I 
understood it. Under the Budget Control Act, if we give you--
let's put OCO over here--if we give you $25 billion more in the 
Department of Defense, in the supplemental request, the Budget 
Control Act will require the Department of Defense do a 5 
percent across the board cut in order to make up for that $25 
billion that is being sent to you. That, of course, makes no 
sense whatsoever. I cannot imagine that you would want to go 
through that exercise.
    So, my question to you is this: did you consult with OMB 
before this supplemental request was made to Congress?
    Secretary Mattis. Senator, we consulted extensively with 
them on our requirements. The mechanism for how to actually 
address this is, as you point out, complicated, and I would 
take no issue with how you characterized the Budget Control Act 
and the effects of sequestration.
    I am aware of it, Senator. It is not something I can give 
you a solution for from my position in the Executive Branch of 
the Department of Defense, but I share your assessment, and I 
take no issue with how you have characterized it.
    Senator Durbin. Thanks, Mr. Secretary. I do not blame you 
for this. This is OMB's job. I do not know why they are playing 
this game with us. They need to waive the Budget Control Act, 
if they truly want to provide more money to the Department of 
Defense for the safety and security of the United States, and 
if they do not, I do not even know why we are wasting our time 
with this hearing.

                         CIVILIAN HIRING FREEZE

    Secondly, let me ask you about the civilian hiring freeze 
announced by the President. This hiring freeze affects civilian 
workers at the Department of Defense. We estimate there are 
742,000 civilian workers, 1.3 million active duty men and 
women.
    On January 23, 2017, President Trump issued a hiring freeze 
of the Federal civilian workforce at the Department of Defense. 
How has this hiring freeze impacted the Department's day-to-day 
operations?
    What impact does it have on the resources you will have 
available when it comes to readiness and the investments which 
you believe are necessary for our national defense, and are we 
hiring contractors to avoid this freeze?
    Secretary Mattis. Senator, we are not right now hiring 
contractors. I think that would violate the spirit of the 
President's Order. However, I have been given and I have 
delegated liberal exception authorities, waivers, frankly, in 
order to keep shipyard workers, depot, airport, aircraft depot 
workers on the job, everything right down to daycare workers, 
so that our troops can drop their kids off and be at work on 
time.
    So, we have to do a rather liberal waiver policy in order 
to address this, and so far it has kept us out of any extremis.
    Senator Durbin. I know a hiring freeze is a great headline. 
This is not the first President who has tried it, but when it 
comes to a hiring freeze in the Department of Defense at the 
same time we are being told to give $30 billion more because we 
need more resources to get ready to protect America, it does 
not work. It does not work.
    The civilian employees, I hope you will agree with me, are 
an important part of our national defense. I am glad to hear 
you are being given these exemptions. I hope that is adequate, 
and I hope you do not turn to dramatically more expensive 
contractors to fill in the voids.
    Let me ask you this question: when I went to Europe a month 
ago to visit in Poland, in Lithuania, in Ukraine, they are very 
worried. They were encouraged by statements that you made and 
statements by Vice President Pence in Munich that seemed to 
give them some relief in their belief that NATO was still alive 
and well.
    You talked about Russian adventurism or however you 
characterized it, and they live it every day. They can look 
across the border at the planned military exercises in 
September of 100,000 Russian troops in Belarus, and see some 
real threats to the borders of the countries I just named.

                    EUROPEAN REASSURANCE INITIATIVE

    So, I want to know why in your supplemental request there 
is not money also being set aside, more money set aside, for 
the European Reassurance Initiative.
    Secretary Mattis. Senator, we prioritized the request for 
what we could execute this year. That was one point.
    A second point is that as you know, there are four NATO 
nations, the United States included, Canada, Germany, et 
cetera, that are actually mounting reinforced battalion combat 
teams to some of the nations you visited, Poland, Lithuania, 
Estonia, Latvia, to make a clear demonstration of NATO's firm 
and unified response to any further adventurism by Russia.
    This is a time when miscalculations can occur, and we need 
to make certain that Moscow does not miscalculate, and we 
believe we have led with the right sort of firm unified action 
out of Brussels that permits us to send a clear and unambiguous 
message to the Russians.
    Senator Durbin. Thank you very much, Mr. Secretary.
    Senator Cochran. Thank you. I now recognize the 
distinguished Senator from Alabama, Mr. Shelby.

                          STRATEGIC CHALLENGES

    Senator Shelby. Thank you. Thank you, Mr. Chairman. Mr. 
Secretary, and Mr. Secretary was a general, and always a 
general, we just have a few minutes here. Would you briefly sum 
up our strategic challenges, if you can? Our challenges 
asymmetrically, and how do we meet them?
    You are in the right committee, and we have had a history 
of supporting the defense, and I believe we will here, but I 
think the American people really need to know the challenges 
that you face as our Secretary of Defense out there.
    Secretary Mattis. Sir, I think the most important issue I 
deal with is how we keep a high-quality force, all volunteer 
force, fully capable of carrying out its responsibilities.
    The strategic challenges, I would lay them out in a couple 
of different packages. One is where we have great powers, 
Russia and China, very different powers, adopting different 
modes, but challenging the international situation, such as we 
have put together to create an environment for peace and 
prosperity, and you see it with both of their efforts to revoke 
or veto the security, the economic, and diplomatic interests of 
nations on their periphery.
    In Russia, we see it with little green men passing out 
passports to Russian speaking people in other countries, 
undercutting Democratic processes. In the South China Sea, we 
see China shredding trust as they adopt a tribute nation kind 
of approach, where all other nations have to pay tribute or 
acquiescence to the more powerful nation, the larger nation.
    We also see in the case of North Korea and Iran a 
proliferation issue, one that has been delayed in Iran, but we 
see the reckless behavior north of the DMZ (Demilitarized Zone) 
on the Korean Peninsula as unsettling the Northwestern Pacific/
East Asia area.
    Then we deal with the terrorist threat, and this, we are 
going to be dealing with for a long time to come. We are in an 
era of frequent scrimmaging, but that would be in a thumbnail 
how I see the strategic challenges, sir.

                            CYBER CHALLENGE

    Senator Shelby. What about the cyber challenge? That is 
something we have to get our hands on. If we do not, we will 
pay dearly, will we not?
    Secretary Mattis. Sir, cyber cuts across all three aspects 
of warfighting. That is nuclear command and control that is 
conventional warfighting, and irregular warfighting, space 
operations, cyber operations, and electronic warfare. These are 
inherent to everything we do today.

                          TROOPS COMBAT READY

    Senator Shelby. General, what are we going to have to do to 
keep all of our troops combat ready? You need flexibility. You 
mentioned this earlier, but you also need resources, do you 
not?
    General Dunford. We do, Senator. There are a few things 
that this budget submission begins to get after. First of all, 
we have used the equipment at a much higher level than we had 
planned, so we need to maintain it. We are short of spare 
parts.
    One of the other critical areas we need is ammunition. You 
will begin to see the services add people to reduce some of the 
stress I spoke about. We really do have many of our people that 
are home about an equal amount of time to the time they are 
deployed.
    I visited one U.S. Navy ship last September. They were 
underway in a previous 12 months 70 percent of the time, they 
were at sea because of an important ballistic missile defense 
capability. So, that is an indicator of parts of the force that 
are really running pretty hard.
    The other thing, Senator, and we have asked for some 
equipment in this particular submission, in some cases, we do 
not any longer have the equipment to maintain, so there are 
literally shadows in the ramp.
    So, in addition to resources to maintain the equipment that 
we have, get the spare parts back up to where they need to be, 
have the ammunition we need for continuous response, we 
actually need to replace equipment, and we see that 
particularly in the case of the aviation enterprise where units 
have fewer aircraft than they rate.
    That creates two problems. One is they do not have what 
they need to go to war. The other is they do not have 
sufficient aircraft to train, so our pilots also have degraded 
readiness as a result of not having sufficient aircraft.
    Senator Shelby. Is the bottom line we cannot be accountable 
to the American people with a defense that is second to none on 
the cheap, we have to pay for it, do we not, Mr. Secretary?
    Secretary Mattis. Well, we do, Senator Shelby. The bottom 
line is America can afford survival. My priorities going into 
the Department are to strengthen the American military, to 
strengthen our allies, so the full burden is not being carried 
by our American taxpayers, the American troops, and to reform 
the business practices so I can come in front of you and 
confidently say we are spending the money that you are giving, 
that the American people are giving us, in a responsible way.
    So, we cannot do it on the cheap, but we also owe you an 
audit of the Defense Department. We also owe you some very 
strong internal processes to make certain we are not wasting 
money.
    Senator Shelby. Thank you.
    Senator Cochran. The time of the Senator has expired. The 
distinguished Senator from Rhode Island, Mr. Reed.

                             SEQUESTRATION

    Senator Reed. Thank you very much, Mr. Chairman, and Mr. 
Secretary, and General Dunford, thank you for your service and 
your testimony today.
    Senator Durbin made two, I think, important points. First, 
with $18 billion in unspecified cuts to the domestic side of 
the ledger, how can we make a decision if we do not know what 
the specific cuts will be? I do not assume you know either. 
That is something we would have to know before we could make, I 
think, a judgment.
    The second point is on sequestration. We are literally 
giving and taking simultaneously. One small point about 
sequestration is OCO does not trigger the cap, but once the cap 
is exceeded, I understand OCO funds would also be subject to 
sequestration, so your ability to move money around even into 
OCO could be limited.
    Those two factors, unspecified domestic cuts plus a giving 
and taking because no attempt has been made to deal with the 
issue of sequestration, they do not undermine your credibility 
and seriousness, but they certainly undermine the proposal, I 
think, in terms of its credibility and seriousness.
    So, having said that let me ask a specific question. One of 
the issues that you have made very clear, Mr. Secretary, is 
that you suggested--not suggested, but directed that these 
programs be executable in this very short window from now until 
October 1.

                          BENCHMARKS/READINESS

    What specific sort of benchmarks did you give out in terms 
of executability?
    Secretary Mattis. Sir, we had to analyze what we could 
actually get under contract and appropriately, not just throw 
money at problems, but monitor to make certain it turned into a 
readiness result, and we had specific benchmarks.
    For example, I think we will double the number of 
deployable Army brigades at top levels of readiness. We 
actually got into that level of detail to make certain that 
what we walk away from here with, if you support it, will 
deliver a readiness that helps us should we have to fight.
    Senator Reed. Again, and this question is for both the 
General and yourself, there are some things that just stick 
right out in terms of readiness, flying hours, parts and 
equipment for platforms that you already have, and then you 
start moving into new platforms. You alluded to some of the new 
platforms.
    Can you give us an idea of where that line is between near 
term readiness, you know, flying hours, versus longer term? We 
have to build the force up, which will take probably a year or 
more to recruit. Perhaps, General, you could comment.
    General Dunford. Senator, thanks. I mean we are at the 
point now in my judgment that we have deferred modernization to 
the point where in some ways there is a distinction without a 
difference between flight hours and new equipment.
    I will give you an example, Senator. I have asked around to 
each of the services for examples of why do we need new 
helicopters, why do we need F-18s, and how do I explain to the 
committee that these are directly related to readiness.
    What you find is that a squadron, for example, a Navy 
squadron, down at Naval Air Station Oceana, that rates 10 
aircraft, actually only has five really basic aircraft in the 
squadron. Again, you cannot go to war with 5 or 10 aircraft, 
but as importantly, you cannot get pilots the right level of 
training proficiency on those five aircraft, which has two 
effects. One, a readiness effect, the other is over time, it is 
a morale issue. We see the same thing with helicopters in the 
Army.
    So, Senator, I think what we are seeing now is as a result 
of the last 5, 6, or 7 years. I have a much broader definition 
of ``readiness.'' To me, it is about what actions are necessary 
to make units whole, to allow them to be combat effective and 
deployable.
    So, today, it is a combination not only of maintaining 
equipment that we have, not only addressing the spare parts 
shortfall, but actually--I called it ``shadows in the ramp''--
actually now replacing shadows in the ramp where equipment does 
not physically exist in a unit in a material condition that 
would allow us to deploy it.
    So, both of those actions in my judgment are necessary now, 
in 2017, and I think the consequences of not addressing it in 
2017, because we do not realize an immediate effect in 2017, 
simply continues what we have been doing over the last several 
years, which is push to the right our readiness recovery.
    So, admittedly, some of these initiatives will not realize 
a readiness benefit until 2019 or 2020, but if we do not take 
the action in 2017, that will simply become 2021 or 2022.
    Senator Reed. Thank you. Gentlemen, I think we do all 
appreciate the readiness challenges after more than a decade at 
war and constant efforts. We want to address those but we have 
these huge issues of what to pay for in terms of not only the 
$18 billion of domestic spending, but are we really going to 
pay for this?
    Frankly, we have been at war now for 16 years, and we have 
not devoted any revenue, significant revenue, to pay for 
preparedness, readiness, personnel, et cetera. The other side 
is the sequestration issue which is hugely complicated and 
challenging. It could end up taking as much as it gives you.
    Thank you, Mr. Chairman.
    Senator Cochran. The Senator's time has expired. The 
distinguished Senator from Maine, Ms. Collins.

                               NAVY SHIPS

    Senator Collins. Thank you, Mr. Chairman. Mr. Secretary and 
General, first let me begin by thanking you both for your 
lifelong commitment of service to our country. It is much 
appreciated.
    The Navy recently updated its force structure assessment 
goals to 355 ships, which is a significant increase from the 
previous goals, to address the increasingly complex military 
threats facing our Nation today.
    In addition, there have been other independent studies, the 
MITRE study, and the Center for Strategic and Budgetary 
Assessments that have also recommended significant increases.
    Following up on the concerns raised by my colleagues, what 
impact does the Budget Control Act have on the ability of the 
Department to fulfill the President's promise to build the 
larger fleet that the Navy and these other independent studies 
have found to be necessary? Mr. Secretary.
    Secretary Mattis. Senator Collins, I can find nothing in 
the Budget Control Act that helps our national security, and 
you have brought up one of the most direct impacts. It is all 
negative. I believe it also sidelines the Congress.
    I think it puts you in a spectator role when we need you in 
an oversight role in the Department because it is your 
knowledge of what we are doing and understanding the strategy 
that allows you to commit American dollars to the defense of 
this country.
    As it is now, we are all watching as this--I would call it 
``near senseless approach to budgeting''--goes on its automatic 
pilot, and we all stand there mute saying there is no way you 
can dignify it.
    We are going to need to build more ships. We are going to 
have a more maritime strategy in the future. It is clear this 
is the case. Right now, it does not help us at all. It hurts us 
in terms of readiness and in terms of long term capability to 
defend the country.

                   SHIPYARD DRYDOCK RECAPITALIZATION

    Senator Collins. Thank you. I completely agree with you, it 
is an abdication of responsibility, and I hope it is something 
that whatever the Administration does, our committee deals with 
and the Congress deals with.
    General, Maine is home to the Portsmouth Naval Shipyard. 
That is one of our public shipyards. It has been called the 
``gold standard,'' which we are very proud of. That shipyard, 
indeed, all of our public shipyards, have major infrastructure 
needs to prevent significant negative impacts to fleet 
readiness and operational availability over the next 30 years.
    It is my understanding that the Navy is developing a plan 
for shipyard dry dock recapitalization. Could you give us some 
sense of when we can expect to receive that plan?
    General Dunford. Senator, thank you. I know and I think you 
know personally that both the current CNO (Chief of Naval 
Operations) and the previous CNO have made several trips to 
your State to fully appreciate the infrastructure issue you 
spoke about.
    I think we all realize that the strength of our shipyards 
is going to be inextricably linked to the ability to do what 
you spoke about a minute ago, which is not only to grow the 
fleet, but to sustain the fleet that we have.
    I know Admiral Richardson is focused on doing this as soon 
as possible, Senator, and I would like to get back to you for 
the record on exactly when he expects to complete that study.
    [The information follows:]

                            maine shipyards
    The Navy is preparing a dry-dock recapitalization plan for our 
Naval Shipyards. The plan is based on a study being developed regarding 
Naval Shipyard dry-dock capacity and survivability. Navy expects the 
plan to be complete by the end of fiscal year 2017. When it is 
finalized, Navy will brief Senator Collins on the specifics of the 
plan, if requested to do so.

    General Dunford. We have had several conversations about 
this, and I can assure you within the Department of the Navy, 
both for Acting Secretary Stackley as well as Admiral 
Richardson, making sure that our shipyards have the wherewithal 
to support the growth of the Navy and the maintenance of the 
Navy that we have is the number one priority.

                                  F-35

    Senator Collins. Thank you. General, international partners 
and allies on the F-35 program play a critical role in helping 
to drive down the costs of that aircraft, as well as ensuring 
interoperability with our NATO allies.
    Could you tell us where the program stands with our 
international partners, and can you quantify the role that they 
play in reducing the overall costs of the F-35 for our 
government?
    General Dunford. Senator, you know, I cannot quantify 
exactly the cost difference as a result of allies and partners, 
but I can absolutely state before the committee that there is a 
significant advantage to our foreign military sales of the F-35 
in driving down the cost to the United States.
    We reviewed our national military strategy over the past 
year, and one of the key questions we asked is, what is the 
source of strength for the United States military.
    The first source is strengthening the strategic level with 
the network of allies and partners that we have developed over 
the past 70 years, and a key element of those relationships is 
interoperability, commonality of parts, commonality of 
equipment, and so forth, so that we can when necessary 
integrate our capabilities in a fight.
    So, for the two reasons you have identified, making sure 
our most capable partners have access to the F-35, and we 
include them in foreign military sales is absolutely critical.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Senator Cochran. The time of the Senator has expired. I now 
recognize the distinguished Senator from New Mexico, Mr. Udall.

                               AUMF/SYRIA

    Senator Udall. Thank you so much, Mr. Chairman, and 
Secretary Mattis and General Dunford. Thank you for your time, 
and thank you for your service.
    I have submitted additional questions to you for the record 
on some of the military bases and issues in New Mexico, so we 
hope you will give us timely answers there. They are questions 
that are important to me.
    I wanted to focus on one of the issues that Senator Durbin 
brought up in terms of the war in Iraq and the war in Syria. 
The President is asking Congress for a defense supplemental 
appropriation for fiscal year 2017, and a significant increase 
in defense spending in 2018. I want to discuss these requests 
in the context of our current war against ISIL in both Syria 
and Iraq.
    In the last couple of weeks, the American people have read 
public reports that additional marines and other U.S. forces 
have been deployed to Syria, up to 1,000 troops. The American 
people are being told that they are there to help counter ISIL.
    To paraphrase St. Thomas Aquinas, one of the first and most 
important requirements to wage a just war is the war must be 
ordered by a legitimate authority.
    Alexander Hamilton and other founders argued strenuously to 
ensure that this power was granted to Congress rather than the 
Executive, in order to prevent the President from engaging in 
risky overseas ventures.
    As you know, the responsibility to make decisions about war 
and peace is one of the most important powers given to Congress 
under the Constitution.
    When the Iraq war first began, we were not an invited 
force, but an invasion force, an invasion force that required 
an Authorization for Use of Military Force from the Congress. 
Fourteen years later, we still have United States forces in 
Iraq serving in a train and assist role, and they have been 
invited by the Iraqi government to support its efforts to 
counter ISIL.
    The 2003 invasion of Iraq required an AUMF (Authorization 
for the Use of Military Force) specific to Iraq, but in Syria, 
the U.S. has not been invited by the government. U.S. military 
vehicles and heavy artillery have been seen in Syria, and it is 
easy to argue the United States has effectively invaded 
Northern Syria, violating the sovereignty of a country in the 
Middle East, which is a de facto declaration of war.
    Secretary Mattis, are you concerned that Congress has not 
approved an AUMF specific to Syria granting the President the 
legal power to invade Syria?
    Secretary Mattis. Senator, I would not characterize it as 
an invasion, but I do not want to spend time on that aspect. I 
think we have to play the ball where it lies right now.
    The clear and present danger of ISIS that bulldozed the 
border in their supposed geographic caliphate, and actually 
removed the border between the two nations, was a reality in 
terms of the war that we had to deal with. We could not draw 
that imaginary line in the midst of an enemy and say on one 
side, he is safe, on the other side, we can take him on.
    I think what we have to do is look at this changing 
character of this enemy threat, and I would take no issue with 
the Congress stepping forward with an AUMF. I think it would be 
a statement of the American people's resolve if you did so.
    I thought the same thing for the last several years, I 
might add, and have not understood why the Congress has not 
come forward with this, at least a debate, because I believe it 
is a clear and present danger that we face. I have dealt with 
this enemy for many, many years. I do not patronize them. They 
mean every word that they say.
    So, in light of that, the Commander-in-Chief, the elected 
Commander-in-Chief, both the last Administration and the 
current Administration, I think, have a duty to protect the 
American people and what we stand for from this enemy.
    Senator Udall. Thank you very much. General Dunford, do you 
have a comment on that?
    General Dunford. Senator, I do, quickly. We have been 
participating in several reviews of this issue. While we do 
assess that we have the legal authority to do what we are doing 
right now, in accordance with the Authorization for Use of 
Military Force that was provided in the wake of 9/11, I agree 
with the Secretary.
    I think not only would it be a sign of the American 
people's resolve, but truly I think our men and women would 
benefit from an Authorization for Use of Military Force that 
would let them know that the American people in the form of 
their Congress were fully supportive of what they are doing out 
there every day as they put their lives in harm's way.
    Senator Udall. Thank you very much. I have additional 
questions on what you would recommend in terms of limitations 
and things like that, but my time is up, so I will submit those 
for the record. Thank you.
    Senator Cochran. Thank you, Senator. The distinguished 
Senator from Missouri, Mr. Blunt, is recognized.

                              SUPER HORNET

    Senator Blunt. Thank you, Mr. Chairman. General Dunford and 
Secretary Mattis, I want to talk about airplanes for a minute. 
We have talked about aircraft carriers. That is an important 
part of being ready. You have to have enough planes on those 
aircraft carriers.
    I see in the supplemental that the Super Hornets have been 
sort of at the top of the non-requested list for a long time, 
and are now on the requested list.
    I know there are a lot of people that argue readiness 
issues need to be addressed by being sure we have pilot 
training time and maintenance hours, but also we have to have a 
line of planes coming along with that.
    Just a response maybe on how important it is for you to 
have both the equipment and the training time that you need.
    Secretary Mattis. Senator, the Super Hornet, the ones that 
we are requesting restore squadrons to the full number of 
aircraft complement that they need to have in order to fight.
    Ultimately, we will have a mix of Super Hornets and F-35s 
on the carrier decks, so this not only contributes to immediate 
readiness, it also contributes to the longer term readiness of 
keeping the carrier air wings fully capable.
    Senator Blunt. Well, I think the committee has been pretty 
effective for a while in making those planes available, but as 
I have talked to both of you about it, it is important to ask 
for them and not say here is what we would like to have, we are 
not asking for it because we are pretty sure you will get it 
for us anyway, but seeing that line stay open is really 
important, and it allows the Growler plane also that is part of 
any future flying package to be there.

                           MILITARY FAMILIES

    I do not have a lot of time, so I think I am going to move 
on to another topic, which is a bill that we had in our defense 
authorization bill last year that really would address the 
needs of families when someone is being reassigned, to create 
not just the option that you might be able to get a way that 
your family could stay a little longer at the post you are 
currently at or go a little earlier, but actually a requirement 
that if the person serving was willing to deal with their own 
amount of expense to either go early or stay, that the family 
would have an option that families now do not have.
    I know that both of you believe that families are the 
backbone of the military. I am hoping if we get that 
legislation in the bill again this time, we will have the 
support of the Pentagon and the Joint Chiefs.
    There is no cost the way that bill is currently written, 
because again, the person serving makes the decision that they 
can either find quarters available to a single individual as 
their family moves earlier, or they can find quarters similarly 
available if they move earlier, or they can simply just decide 
it is so important that my family be able to stay until my 
spouse's job transitions properly, my kids finish this year of 
school, or the reverse of that, that they do that.
    I know, General Mattis, you and I talked about this, and 
you were immediately encouraging in your support of that kind 
of change. I would like you both to talk about that.
    Secretary Mattis. Senator, we had a good talk in your 
office. I went back and checked on it. Apparently, it is not 
budget neutral because of entitlements, so we may have to come 
in and get legislative relief, which I am fully committed to 
doing if that is what it takes, so we do not have to run two 
different payments for maintaining two households.
    I am not certain why we need legislative relief, and I have 
the staff researching it now. I am in complete agreement with 
the program. It is just how, do we do it in a way that is 
consistent with your view of budget neutral, and we will get 
there.
    Senator Blunt. I am sure we can get the budget neutral, if 
that is the kind of legislative relief you need, we will see 
that happens.
    General Dunford, just a quick story. I was hosting a 
breakfast for Fort Leonard Wood a year ago, 2 years ago, when I 
filed this bill, sat down at a table with General Selva and his 
wife, and General Perkins from TRADOC, and a retired Sergeant 
Major, and I mentioned I had filed this bill. Every one of them 
had a story when this would have made an incredible difference 
to their families.
    General Dunford. I executed, I think, in excess of 20 PCS 
moves and navigated my spouse's employment and education for 
our children and so forth.
    I do appreciate what you are trying to do here, and without 
talking about the specific challenges of this piece of 
legislation, I think allowing the services to have the kind of 
flexibility that you are suggesting would absolutely be 
helpful, and I know we would have full support.
    Senator Blunt. Thank you. Thank you, Chairman.
    Senator Cochran. Thank you, Senator. The Senator's time has 
expired. I now recognize the distinguished Senator from 
Vermont, Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. Secretary Mattis, 
the first time I have been able to call you ``Secretary,'' and 
not ``General.'' Nice to have you here.
    General, my school mate, different years, but we both have 
degrees from Saint Michael's and from Georgetown, and I know in 
Vermont, they are excited you are going to be coming to Saint 
Michael's next month--no, in May.
    Mr. Chairman, I want to put my statement in the record.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Thank you, Chairman Cochran and Ranking Member Durbin, for holding 
this important hearing to review the budget and readiness of the 
Department of Defense.
    The 2017 supplemental that President Trump has proposed for the 
Department of Defense would exceed the spending caps for defense set in 
the Budget Control Act, triggering sequestration and across-the-board 
cuts for the Department of Defense, in just 10 weeks, if the law is not 
changed. I believe all Members of this Subcommittee should work 
cooperatively to avoid that outcome, but cooperation is a two-way 
street.
    Since 2012, the sequestration law has forced Congress to enact 
budget cuts in both defense and non-defense spending that will have 
negative consequences for a generation. Today, only one-third of army 
combat units are ready to be deployed. For two consecutive years, the 
Navy has faced annual shortfalls in excess of $700 million in ship 
maintenance, which have resulted in critical maintenance periods being 
canceled. But sequestration has produced terrible consequences for the 
average American as well--our infrastructure is failing, investment in 
job training and employment are down, and education funding lags 
behind. All of this impacts national security and makes us less safe.
    A failing infrastructure undermines our national security by 
weakening economic growth and creating vulnerabilities in our bridges, 
our water systems, and our electrical grid. Cuts in programs that 
invest in job training, in innovation, in education, and in nutrition, 
hurt our economy in the long run, and cripple our ability to provide 
our armed forces with men and women capable of serving. Reduced funding 
for medical research and disease prevention makes America less healthy.
    Slashing non-defense programs to pay for an increase in defense 
spending is not a solution and would not make our Nation safer. 
National security is not solely the mission of the Department of 
Defense. The President says he prefers ``hard'' power to ``soft'' 
power, but the notion that ``soft'' power is weak or wasteful is 
mindless. Failing to invest in America, and cutting programs that feed 
millions, prevent AIDS or treat tuberculosis and malaria, will make the 
world less stable, and make your job more difficult. Secretary Mattis, 
you have even said that if we do not fully fund the State Department, 
we should be prepared to buy more ammunition for the military. That is 
not a trade I am willing to accept.
    While we must ensure that we do not have a ``hollow force,'' we 
must also avoid a ``hollow country.'' That is precisely what President 
Trump's budget proposes. Sequestration has already had devastating 
consequences that will take a generation to recover from. The 
President's proposal seeks to add even further draconian cuts to non-
defense programs. This, I believe, would leave us with a hollow force 
and a hollow country.

                       ECONOMY/NATIONAL SECURITY

    Senator Leahy. But I note that since 2012, the 
sequestration law has forced Congress to enact budget cuts in 
both defense and non-defense. It is going to have consequences 
for generations.
    Today, only one-third of Army combat units are ready to be 
deployed. For 2 years in a row, the Navy has faced annual 
shortfalls in excess of $700 million in ship maintenance, which 
results in critical maintenance periods being cancelled.
    Sequestration has produced terrible consequences for the 
average American as well, infrastructure, investment in job 
training and employment are down. Education funding lags 
behind. That impacts our national security, too.
    Failing infrastructure weakens economic growth, it creates 
vulnerabilities in our bridges, our water systems, and our 
grid. We cut money in nutrition, education, and research. That 
hurts us. It actually cripples our ability to provide our Armed 
Forces with the men and women they need in the future. Reduced 
funding for medical research, disease prevention, makes us less 
safe.
    Slashing non-defense programs to pay for an increase in 
defense spending is not a solution. National security is not 
solely the mission of the Department of Defense. The President 
says he prefers hard power to soft power, but soft power is not 
weak or wasteful.
    Cutting programs worldwide to feed millions, prevent AIDS, 
treat tuberculosis, malaria, all the things we do worldwide. We 
cut that, it makes the world less stable. It makes your job 
more difficult.
    Mr. Secretary, you have even said if we do not fully fund 
the State Department, we should be prepared to buy more 
ammunition for the military. I do not know if that is a trade 
you want to have to make. It is not a trade I want to make.
    Let me ask this: we know that not all national security 
comes from DOD. We have to have a healthy population to be 
secure. Could you both speak about why a strong economy is 
essential to maintaining a strong military, and what about non-
military powers, such as diplomacy or development, what part 
does that play in our national security? Mr. Secretary?
    Secretary Mattis. Senator, the engine for national security 
has always been our economy, a strong economy equates to a 
strong military, and history is pretty compelling. Nations that 
did not keep their fiscal house in order, their economies 
strong, lost their military power.
    I am here addressing a readiness issue when I came back to 
the Department in my current role that is severe, and that is 
why I am here today fighting for this budget addition, the 
additional $30 billion, $25 billion of which goes directly to 
readiness.
    My role is to keep the President and the Secretary of State 
and our diplomats always negotiating from a position of 
strength, and it is an obligation that I carry.
    I do not take any issue with the way you have characterized 
the budget sequestration and the effect of sequestration on all 
of our spending.
    I would add we are keenly aware of the sacrifices made by 
the American people and the other departments in terms of 
providing the military budget that we are getting, and I owe 
you a good audit to gain your confidence that we are spending 
that money wisely.
    Right now, I think I want to make certain we have our 
diplomats in a position of strength when they negotiate in this 
increasingly perilous world.
    Senator Cochran. The time of the Senator has expired.
    Senator Leahy. I did not know whether you were going to let 
General Dunford answer the questions that I asked of both of 
them. If not, I will submit it for the record, and I will also 
submit a number of questions for the record.
    Senator Cochran. Thank you, Senator. The chair recognizes 
the distinguished Senator from Montana, Mr. Daines.

                  MODERN LAND-BASED NUCLEAR DETERRENT

    Senator Daines. Thank you, Mr. Chairman. Secretary Mattis, 
General Dunford, thank you for your service. As a son of a 
marine from the 150th Rifle Company in Billings, Montana, my 
dad is very proud that I get to be in the same room with both 
of you, and thankful for your leadership and service to our 
country, truly.
    Secretary Mattis, I want to welcome you especially at your 
first hearing as SECDEF, and I want to invite you to come out 
to Montana and visit Malmstrom Air Force Base in Great Falls. 
You will see firsthand the hard work our airmen are doing to 
keep the Minuteman III ready.
    We are here today to discuss the state of our military's 
readiness, which many agree has been neglected over the past 8 
years. I am pleased to see President Trump's budget submissions 
have challenged the status quo, and has caused a refocus on 
what matters the most, and that is keeping Americans safe.
    Secretary Mattis, as you know, Malmstrom Air Force Base in 
Great Falls, Montana is home to one-third of our Nation's ICBMs 
(intercontinental ballistic missiles). Most of our current 
Minuteman III missiles have been in service for almost 50 
years. While airmen have diligently maintained this aging 
system, we must field a modern ground-based strategic deterrent 
in order to meet 21st century strategic challenges.
    Some argue that modernizing our nuclear arsenal is too 
expensive, but as the CBO has pointed out, the entire nuclear 
triad accounts for just 6 percent of our total 10-year budget 
for our national defense.
    Secretary Mattis, how valuable do you consider a fully 
modern land-based nuclear deterrent in your arsenal to keep 
Americans safe?
    Secretary Mattis. Senator, the need for a nuclear deterrent 
to ensure those weapons are never used requires a triad.
    To determine what level a triad must be at, we have a 
nuclear posture review that is getting underway, but I would 
tell you the land-based leg of the triad, the intercontinental 
ballistic missile, is a very sobering reminder to any enemy 
that would choose to test us that we could soak up an awful lot 
of their nuclear weapons in order to take out a single one of 
those silos. As a result, it is a stabilizing influence to have 
the ICBM force fully capable in its deterrent role.
    Senator Daines. One of my favorite Commander coins comes 
from Malmstrom, and it says ``Scaring the hell out of America's 
enemies since 1962.'' I am proud of the work that they do to 
keep the world safe.

                              HELICOPTERS

    I am concerned that the Air Force is no closer to replacing 
our Vietnam era Huey's for missile field security response than 
it was when I met with Secretary James last year. As a result, 
our airmen will operate inadequate equipment yet another one.
    Secretary Mattis, if the Air Force is given the $1.8 
billion increase you requested for aircraft procurement, when 
might we expect to see a new and more capable helicopter 
deployed to our mission fields?
    Secretary Mattis. Sir, I anticipate that the Vietnam era 
Huey's will be gone and replaced by around 2021. That is my 
goal right now. I have to get into the budget in detail and 
look at what years we can get what amounts of money.
    I recognize that the security forces need the proper 
helicopters, the force in the field needs the proper 
helicopters, and the Huey has done a good job, but it is time 
for it to go.

                       GUARD AND RESERVE TRAINING

    Senator Daines. Thank you, Mr. Secretary. I want to shift 
and talk about our Guard and Reserve training. As we look to 
modernize many of our aging weapons, we want to make sure we do 
not neglect the readiness of our military families.
    Guardsmen and Reservists often travel hundreds of miles to 
and from their duty locations every month, most are not 
reimbursed for the costs they incur, and are limited as to what 
they can claim as business related expenses. I think that is 
flat out wrong. Service members should not be taxed on money 
they spend to subsidize their own training.
    This afternoon, I will be introducing the Tax Relief for 
Guard and Reserve Training Act, which will allow Guardsmen and 
Reservists to deduct travel expenses, including meals and 
lodging, to ensure they are not penalized for serving their 
country.
    General Dunford, can you speak to the unique challenges 
that Guardsmen and Reservists face on drill weekends that you 
observed during your 40 years in uniform?
    General Dunford. Senator, obviously, not personally. My 
brother did spend 20 years in the Reserves. I had an 
opportunity to see him, and obviously, the men and women that I 
visit with routinely.
    They do have a unique challenge. I even tell them when I am 
speaking to them, you know, I only have one thing I have to 
worry about, which is being a full time active duty, you have 
to be a soldier, sailor, marine, whatever you are doing in your 
personal life, and you are trying to balance a family.
    I think when they give up a week, 2 weeks a month, when 
they go on deployment for a year and they set aside their 
civilian employment, I think they do have some unique 
challenges. I appreciate your interest in making sure we can 
mitigate some of the consequences of those challenges.
    Senator Daines. Thank you, General.
    Senator Cochran. Thank you, Senator. I now recognize the 
distinguished Senator from Montana, Mr. Tester.

                    PROCUREMENT PROCESS/HELICOPTERS

    Senator Tester. Back to back. Thank you, Mr. Chairman. 
Secretary Mattis, it is good to see you again, I appreciate our 
conversation last week, and it goes without saying, thank you 
for your service and your willingness to continue to serve.
    Like you, I fully support ensuring that our troops have 
everything they need to make this Nation safe. The President's 
budget, however, goes about it in what I believe is the wrong 
way.
    While gutting the budgets of other agencies is critical to 
preventing conflict, the President's budget continues the trend 
of putting military operations on a credit card, and it 
ultimately forces our kids and grandkids to pay for this 
increase.
    We should certainly not take away food from our seniors who 
are hungry to pay for increased military activity across the 
globe.
    Some folks equate American military interventions with 
American leadership. For the record, I do not. In my opinion, 
our Nation's strength is only reflected by the size and 
capability of our military. It is also reflected in the 
strength of our schools, our healthcare system, our Nation's 
infrastructure.
    Our strength is reflected in our economic security and 
national security, as you have already pointed out. It is about 
time that our priorities, investments, and conversations 
reflect that reality.
    I want to dove tail on just a little bit of what Senator 
Daines said that has to do with the helicopters that are coming 
into Malmstrom Air Force Base. As pointed out, these are 
Vietnam era helicopters that we currently are using, far past 
their expected time of usefulness.
    We were told time and time again on this committee that 
they would be replaced by 2019. I just heard you say they would 
probably move to 2021. I believe if I went back and looked at 
my notes, they were probably due to be in long before 2019 
even.
    We worked on military construction, making sure they have 
the housing. We got that done. So, we are ready for them. I 
checked back on what we did last budgetary cycle. We actually 
plussed up the President's request for replacement on this 
committee. It was due to the work, I believe, that Senator 
Daines and I and other members on this committee did that we 
were able to do that.
    The question is it really money or is it the procurement 
process, or is it something else that we need to fix to make 
sure those helicopters get there? Quite frankly, it is 
important.
    Secretary Mattis. Well, it is absolutely important, sir, 
for the rotation of the crews, the launch crews, as well as the 
security forces. I cannot tell you how we got into this 
position in past years.
    I can tell you that the impact of budget sequestration 
ripples through everything we do, and not always do we maintain 
the process that we come up and testify on when other dynamic 
issues accrue, and now we have an alarm on keeping our B-52s in 
the air. We have an alarm on ships that cannot go to sea, and 
we have to back up and reprogram, and all the chaos.
    Again, it is a ripple coming out of a budget process that I 
think has frustrated the House and the Senate as much as it has 
frustrated the Department of Defense and our military services. 
I intend to have this solved, sir.
    Senator Tester. Okay.
    Secretary Mattis. And I will work it.
    Senator Tester. I would just tell you, and I know you guys 
need continuity in budgets for predictability, and it is really 
the only way you can plan for the future, but we budgeted 
around sequestration last year. We took it off the table. We 
are going to have to do it again. Then we plussed up what the 
President was asking for.
    I would just ask you to take a look at that. You are a 
solid man, and I know for all the right reasons. I just bring 
this up just to make sure it is on your radar screen.

                                  NATO

    On Saturday, President Trump tweeted that Germany owes vast 
sums of money to NATO and the United States. I have been 
arguing for years that we need our NATO allies to contribute 
more, that we cannot continue to fund the whole ball of wax. We 
have shared security priorities with your friends in Europe.
    In your opinion, are we owed money by Germany and other 
NATO allies for our military presence in Europe?
    Secretary Mattis. Sir, the alliance owes full commitment by 
each member nation. I cannot give you an accounting for past 
money owed because that is not the way we do that in NATO. We 
do it through capabilities. That is the commitment each nation 
makes.
    However, we are seeing Germany is committed to going to the 
two percent. That has been reinforced by their Minister of 
Defense when I spoke with her, and also by the Chancellor, and 
I think they are on the right track to lead the development of 
the 2 percent budgets across the alliance.
    Right now, there are five nations making it. I anticipate 
four more in the next 12 months. We will see more nations 
coming on line assuming their economies can hold together the 
way they are right now or improve.
    Senator Tester. Thank you, Mr. Secretary.
    Senator Cochran. Thank you, Senator. The Senator's time has 
expired. The chair now recognizes the distinguished Senator 
from Kansas, Mr. Moran.

                                 RUSSIA

    Senator Moran. Mr. Chairman, thank you very much. 
Gentlemen, thank you both on behalf of Kansans for your service 
to our Nation.
    You both in your testimony, in your written testimony, talk 
about the threats, a number of threats, but one of them that 
you both mentioned is Russia. I want to focus a moment on 
Russia and its role in Syria.
    We have learned within the last week, and it has become 
clear that an organization, a militia group, called Syrian 
Kurdish YPG Militia, has formed a bilateral relationship with 
Russia in the process of building some kind of military 
facility in Northwest Syria.
    This, I believe, is one of the groups that we are 
supporting in our assist and train funding efforts. Your budget 
request includes an additional $600 million for the counter-
ISIS train and equip fund that I believe includes funding for 
this organization.
    My question is both broad and specific. What do you see as 
the role of Russia in our efforts to have success in Syria, and 
how do we make certain that the money that we provide to 
militia groups are in support of that effort, and what kind of 
consequence is there with a relationship to Russia?
    Secretary Mattis. Very quickly, and I will let the chairman 
address this specific group. YPG has actually got two different 
areas, one of them, the Afrin Kurds, the one you are referring 
to, that Russia has developed a relationship with, but right 
now, we are in a position to have deconfliction with Russia. We 
do not coordinate with Russia.
    Let me have the chairman get into the details of your 
specific question.
    Senator Moran. Thank you, Mr. Secretary.
    General Dunford. Senator, I can confirm for you that the 
specific group that is being supported by the Russians is not a 
group that has received training, equipment, resources from us 
in the Northwest part of Syria.
    To the Secretary's point, we are very clear that we do not 
have political alignment with Russia in Syria, so at the 
military level, and we are also very clear as to what the NDAA 
(National Defense Authorization Act) specifies with regard to 
not being able to cooperate with Russia.
    So, on the ground in Syria right now, what we are working 
very hard to do is just make sure that our people on the ground 
are safe, that our aviators are safe, and we are able to 
prosecute the campaign in Syria, deconflicting our operations 
with those being conducted by Russia.
    The specific groups that we do provide support to, and the 
ones we have asked to provide additional support to, we do have 
a very detailed vetting process that we use to mitigate the 
risk of weapons or equipment falling in the wrong hands.
    Senator Moran. What about the relationship between those 
groups that we may assist and their relationship with Russia? 
Is that a component of the vetting process?
    General Dunford. It is a component of the vetting process, 
Senator, and I am going to be quite honest with you, the group 
that we are supporting, certainly at the political level, has 
been engaged in Russia. The YPG has a political office in 
Moscow itself. The groups that we are providing support to on 
the ground are not being supported directly by Russian military 
forces.
    Senator Moran. Thank you. We are expecting a report, a 
strategy, from the Department of Defense in regard to our 
efforts in Syria. Is that soon forthcoming?
    Secretary Mattis. It is, Senator. We have the skeleton plan 
put together. We are flushing it out. It is an interagency 
developed report where it embraces economic, diplomatic, 
military covert means, and we should have this done in the next 
couple of months, if that long. It may not even take us another 
month. We are still putting it together, sir.

                             GUANTANAMO BAY

    Senator Moran. Thank you, Mr. Secretary. This budget 
amendment includes some military construction funding that we 
are anxious to also take a look at in our subcommittee.
    One of those areas that you are requesting funding in is 
the military construction project at Guantanamo Bay, that is 
designed to redesign new barracks for our enlisted men and 
women, men I believe in this case, for the detention operations 
at Guantanamo Bay.
    Would you like to highlight the value of why those dollars 
are included in this request, and what they mean? We had a 
Kansas National Guard unit that deployed to GTMO for providing 
security services.
    A long list of military officials have decried the 
conditions of the facilities at Guantanamo Bay. I wanted to 
give you the opportunity to make certain we know why that is 
included and its value.
    General Dunford. I have in the last few months been down to 
visit our men and women down in Guantanamo Bay, and as you can 
appreciate, I think that is as arduous and demanding work as we 
have going on inside the Department of Defense.
    They are living in facilities that are old, well past their 
time. I believe for right now, we do need to provide them with 
suitable living facilities and a new barracks, and that is the 
reason it is part of the request.
    Senator Moran. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator. The chair now 
recognizes the distinguished Senator from Hawaii, Mr. Schatz.

                DEPARTMENT OF STATE 28 PERCENT REDUCTION

    Senator Schatz. Thank you, Mr. Chairman. Secretary Mattis, 
thank you for being here. I would like to follow up on a couple 
of questions that were asked earlier in the hearing.
    Can you walk me through what a 28 percent cut to the 
Department of State would mean for the Department of Defense?
    Secretary Mattis. Just off the top of my head, sir, it 
would probably replicate what has been going on with the 
Department for several years in terms of the impact on 
readiness and why I am here in front of you right now.
    A 28 percent cut to the Department of Defense----
    Senator Schatz. Excuse me. A 28 percent cut to the State 
Department, which is being proposed by the Administration, how 
would that impact your department?
    Secretary Mattis. That, I cannot quantify right now. I 
would have to look at the specific programs being cut, and try 
to translate that into impact on our operations.
    I would have to look at--I have not looked at it line by 
line to see which programs are being cut and what might be the 
impact.
    Senator Schatz. Let me ask the question another way. How 
critical is your partnership with the Department of State in 
terms of, for instance, the Asia-Pacific Rebalance?
    Secretary Mattis. Senator, I worked very close with 
Secretary Tillerson. We get together at least once a week. We 
are on the phone 3 or 4 times a week. His officers, Foreign 
Service officers, are in our building helping us craft policy.
    It is absolutely a team effort as we tie diplomacy and 
military means together, so when we walk into security staff 
meetings, State and Defense are aligned. It is a critical team 
effort, and we intend to keep it that way.

                            COAST GUARD CUTS

    Senator Schatz. OMB has put us on a course for some 
substantial cuts to the Coast Guard, and I am wondering whether 
you can talk about the partnership between the Coast Guard and 
the Department of Defense.
    My own judgment is that the Coast Guard is incorrectly 
categorized as non-defense spending, when at least some portion 
of it are certainly expenditures that are in partnership with 
the Department of Defense. I would like you to flush that out 
for me.
    Secretary Mattis. Senator, the Coast Guard's efforts, for 
example, in maritime control along our coasts, beyond search 
and rescue, I am talking about interdiction of drugs, 
interdiction of human trafficking, and certainly in the cases 
like in the Arab Gulf, the Persian Gulf, where the Coast Guard 
vessels are deployed alongside our Navy vessels, it is a good 
team.
    We need them for the special role they have, which includes 
law enforcement. As you know, we do not do those kinds of 
things, arrest, that sort of thing. If we have to do that with 
a U.S. Navy ship, we bring law enforcement teams from the Coast 
Guard on board our ships to maintain that red line that the 
U.S. military not engage in that kind of activity.
    So, it is a good relationship. It is a strong relationship 
in terms of cross fertilization, and looking out for America's 
interests. I hope that answers your question.
    Senator Schatz. It does. Thank you, Mr. Secretary, for your 
first if not maybe one of your first overseas trips as 
Secretary in the Asia-Pacific region. Thank you for your clear 
reassurance to our allies and your message to our adversaries 
in the region.

                              ASIA-PACIFIC

    The Asia-Pacific Stability Initiative is something Senator 
McCain has put forward to support PACOM's needs in the face of 
Chinese military modernization. I am wondering if you can talk 
about whether you support the idea, and how that is impacting 
your 2018 planning.
    Secretary Mattis. Senator, the Asia-Pacific region will be 
a priority region. We obviously have worldwide 
responsibilities, but we have five states that are Pacific 
Ocean states, have coast lines there. We have interests that 
endure in the Pacific.
    The reason I made my first overseas trip out there was 
based on CIA estimates of where we faced the biggest, immediate 
challenge, and to reassure our allies that we were with them. I 
thought it was necessary at that point.
    I fully support what I have read. I do not understand all 
the details in Senator McCain's plan, but I support the themes 
that he outlined and the importance he assigns to that region.
    Senator Schatz. In the interest of time, I will submit this 
one for the record. I would just like your view on whether we 
are still on track with EDCA, given the politics in the 
Philippines, and your ability to retain a relationship with the 
Defense Minister in the Philippines as well. Thank you.
    Senator Cochran. The time of the Senator has expired. The 
chair now recognizes the distinguished Senator from Alaska, Ms. 
Murkowski.

                                  F-35

    Senator Murkowski. Thank you, Mr. Chairman. Mr. Secretary 
and General Dunford, welcome, and thank you for your 
leadership.
    My first question is directed to you, Secretary Mattis, 
regarding the F-35s and the bed down in Eielson, near 
Fairbanks, Alaska. This is the first F-35 basing location in 
PACAF (Pacific Air Forces), we are anticipating the receipt of 
those F-35s in 2020.
    The military construction has been appropriated but the 
procurement dollars for the F-35 buy have not yet been 
appropriated. Can you tell me what the plan is to budget for 
the procurement of the 54 F-35s that are coming to Eielson, and 
do you anticipate any impediments to a timely bed down?
    Secretary Mattis. Senator, there are F-35s in this 
additional budget request, but I am going to have to take that 
for the record and get back to you on those specific airframes 
that will support that one unit. I do not know that right now, 
but I will get back to you on that.
    [Information follows:]

                       f-35 procurement--eielson
    The first aircraft arrival for Eielson is still scheduled for early 
2020 and that year's aircraft are on track for delivery. We don't 
anticipate any issue with a timely bed down at Eielson, with the last 
aircraft arriving in 2022.

    Senator Murkowski. I would appreciate clarification. As I 
am sure you are aware, the folks in the Interior are following 
this very, very carefully, and just wanting to ensure we are on 
track with the timing.

                             RUSSIA/ARCTIC

    I would like to also raise a question regarding Russia, as 
several of my colleagues have. General Dunford, during your 
confirmation hearings back in 2015, you indicated at that time, 
``If you want to talk about a nation that could pose an 
existential threat to the United States, you would have to 
point to Russia.'' At that time, you characterized their 
behavior as nothing short of alarming.
    Of course, we in Alaska are watching our neighbors to the 
East very carefully. We have 57 miles that separate Alaska from 
Russia over the Bering Straits. We are concerned by what we see 
as military build-up there in the Russian Far East.
    This morning, I would ask a question as to whether or not 
you still see Russia's behavior as alarming. What do you make 
of the military activities in the Arctic?
    Then if you can speak to the issue in the Arctic of defense 
cooperation in certain areas, certainly in the areas of search 
and rescue. That is something that as the Arctic nations are 
working and collaborating, we look to that as an opportunity, 
but again, you have a tension, if you will, between what we see 
as a military build-up juxtaposed to the other issues that we 
are facing in the Arctic.
    General Dunford. Senator, thank you. First, on my overall 
assessment of Russia, my assessment of their capabilities and 
their behavior has not changed since 2015.
    In fact, I think if you look at our request in 2017, and I 
think anticipating what we will ask for in 2018, 2019, and 
2020, a good part of it is benchmarked against Russia as a peer 
competitor in the areas of cyber, space, maritime capability, 
undersea warfare, electronic warfare, and the full range of 
capabilities. My assessment has not changed.
    In terms of what they are trying to do, I think they are 
trying to do two simple things. At the strategic level, they 
are trying to undermine the credibility of our alliances and 
our ability to meet our alliance commitments.
    Secondly, when you look at the military capabilities, 
whether they are in the Arctic or in Europe, what they are 
trying to do is prevent us from being able to move military 
power into the region or operate freely within the region. 
Again, connected to our ability to meet our alliance 
commitments.
    So, I think they are very clear about what our strength is, 
which are our allies and partners, and our ability to project 
power when and where needed to advance our national interests, 
and I look at their political activity, what we really call 
``adversarial competition'' that has a military dimension, but 
it falls short of warfare.
    As they combine economic and political influence on 
conventional warfare cyber capabilities, it gets after again, 
trying to erode our allies, and then when we look at their 
military posture, whether it is in the Arctic or in Europe, 
their intent is to keep us from projecting power.
    I do see increasing concern by Arctic nations to work 
together, to mitigate the effects of Russian capability 
development and behavior, and I think the importance that we 
place on the Arctic is reflected in the fact that the 
Department rewrote the strategy for the Arctic in 2013, and I 
think without me turning to the Secretary of Defense guidance 
that he will give us soon, I anticipate the Arctic will be a 
critical part of that.
    Senator Murkowski. My time has expired, Mr. Chairman. I 
would submit a question to you, Secretary Mattis, along the 
same lines of the interest in the Arctic, the investments in 
the Arctic, in terms of equipment necessary to defend the 
country in this very changing and very dynamic world up North.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator. I now recognize the 
distinguished Senator from Wisconsin, Ms. Baldwin.

                ISIS AND DEPARTMENT OF STATE REDUCTIONS

    Senator Baldwin. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary, General Dunford.
    You have received several questions already about the 
partnership between State and Defense, and the potential impact 
on the Defense Department with regard to cuts that are 
contemplated at this point in the State Department.
    I want to look at that a little more closely, and I want to 
start with General Dunford. Part of the mission of Operation 
Inherent Resolve is to enable whole of coalition government 
action to increase regional stability, defeat the ideology of 
ISIL, and stem the global flow of foreign fighters.
    According to that mission statement, that means enabling 
America and coalition nations to counter ISIL with the full 
might of their national power. Here, I am quoting directly, 
``Including diplomatic, informational, economic, law 
enforcement, and other aspects of national power.''
    General Dunford, in your professional military judgment, 
would it be strategically wise to reduce funding and staffing 
levels for civilian agencies like State and USAID, and as we 
review these budgets, can you point out any particularly 
important aspects of the partnership in the fight against ISIL 
that we should keep a close eye on in terms of fighting maybe 
to restore some of the funding that has been proposed to be 
cut?
    General Dunford. Senator thanks. First of all, with regard 
to ISIS, we really have nine areas that we have identified that 
are critical to our strategy, and although we are in the 
process of revising our strategy, I think the relative 
distribution of labor across the government will not change.
    The Department of Defense leads on two of those nine, and 
other elements of the government lead, and you identified some 
areas where the State Department or other elements of our 
government will lead, but if you look at what must be done to 
deal with the ISIS threat, we do have to deal with the flow of 
foreign fighters, we do have to address the resources, we do 
have to undermine the credibility of the narrative. Those are 
three of the most important tasks.
    The leads for dealing with all of those three are other 
elements of the government. Although I cannot talk to the 
adequate levels of funding for any other element of the 
government, what I can say is in order for us to be successful 
against ISIS or any of the threats that we face right now, it 
will be important for us to fully leverage all the capabilities 
our Nation has, diplomatically, economically, and militarily, 
and now in the 21st century and information space as well.
    Senator Baldwin. I know the policy is under revision, but 
can you tick off really quickly the two elements of Defense and 
the other seven?
    General Dunford. Sure. Good governance is one; dealing with 
foreign fighters is another. Addressing the resources is 
another. Dealing with the narrative is another. Building the 
capacity of our partners on the ground is another. Denying the 
enemy sanctuary is another, and then the economic tools that we 
have would be the last.

                               ISIS/AUMF

    Senator Baldwin. Thank you. Secretary Mattis, you had a 
question from Senator Udall already about the lack of an ISIL 
specific Authorization for Use of Military Force. Nonetheless, 
you are in the process of revising, if you have not already 
concluded the process of revising the elements of the operation 
to defeat ISIL.
    Can you give us details of how you plan to spend the $2 
billion that you are requesting specifically for acceleration 
of the defeat of ISIS? For example, can you give us any early 
detail about additional troops that you would be sending to 
Iraq and Syria with this funding?
    I recognize that some things need to be shared in closed 
settings, in classified settings. I do think it is important, 
especially if you are encouraging us to engage in public debate 
about a new Authorization for Use of Military Force, which by 
the way, I support, and criticized the previous Administration 
for not pursuing that more aggressively, so some information 
does need to be shared in an open setting in order for us to 
have that debate.
    Secretary Mattis. Senator Baldwin, when I leave here today, 
I go over to Foggy Bottom where Secretary Tillerson has 68 
nations, senior representatives, his counterparts, gathered, 
where we are talking about the very issues you have just 
brought up.
    We are talking about how we are actually going to 
orchestrate the international community's efforts against them. 
When you switch over to the AUMF issue, again, I think a firm 
statement by the U.S. Congress would hearten our allies as well 
as give our troops a sense of purpose.
    On the $2 billion, I would tell you we are going to 
confront the enemy with an increased number of fights in 
various locations so they have cascading problems, to collapse 
them as quickly as possible.
    The idea being right now, Senator, that they have eminent 
operations to attack our allies overseas. In other words, what 
they call their ``external operations.'' We intend to throw 
them on their back foot.
    As far as any additional troops, I would have to see the 
specific military problem we are working by, with, and through 
allies where it requires our troops. I am not at that point 
right now. The few troops that have been added have been for 
fire support or for monitoring, that sort of thing.
    These are the kinds of things that only we can do, at least 
with the kind of time line we are on right now, but they are 
not there permanently. We remain with a by, with, and through 
our allies' approach.
    This money will permit us to accelerate the operations I 
just referenced, if that is helpful.
    Senator Baldwin. Thank you, Mr. Secretary.
    Senator Cochran. The time of the Senator has expired. The 
chair recognizes the distinguished Senator from South Carolina, 
Mr. Graham.

                                  AUMF

    Senator Graham. Thank you, Mr. Chairman. The Marine Corps 
should be honored, speaks well of the Marine Corps that both of 
you are here.
    I am going to get through as much as I can, I know we just 
have five minutes. If you were going to do an Authorization for 
Use of Military Force, Secretary Mattis, by the Congress, would 
you suggest that we limit the authorization to a particular 
period of time?
    Secretary Mattis. No, Senator, I do not.
    Senator Graham. What about geography? We can only fight the 
enemy in certain places?
    Secretary Mattis. Senator, due to the nature of this 
enemy's threat that would only work to help the enemy.
    Senator Graham. Take means off the table, take away from 
you the ability to deploy means? How you would fight them.
    Secretary Mattis. Senator, I think it would be best if the 
Congress would say what they want us to accomplish. I have no 
reservation about sharing in closed session with you how we 
would carry that out.
    Senator Graham. Got you. My view is if you want to destroy 
ISIL, you should not limit yourself to time, geography, or 
means. You should just destroy them.

                               SOFT POWER

    To destroy them, do you agree that soft power is an 
essential ingredient in winning the war on terror? Both of you.
    Secretary Mattis. Sir, America has two fundamental powers, 
the power of intimidation and the power of inspiration. Soft 
power is largely found in the power of inspiration, and it is 
part and parcel of how we defeat this enemy.
    Senator Graham. Do you agree with that, General Dunford?
    General Dunford. I do, General, and at the end of the day, 
we are involved in a war of ideas and undermining the 
credibility of the narrative of the threat is going to be 
critical to our success. I think that has been defined as 
``soft power.''
    Senator Graham. I admire you both because it is true, you 
will never win this war just by killing terrorists. You have to 
do more in my view.

                         RESIDUAL FORCE IN IRAQ

    Let's look forward in Iraq. The day that Mosul falls, and I 
am sure it will, would you support a residual force staying in 
Iraq to make sure that ISIL does not come back, if the Iraqis 
would accept one? Secretary Mattis.
    Secretary Mattis. Sir, I believe it is in our national 
interest that we keep the Iraqi security forces in a position 
to keep our enemies on their back foot, our mutual enemies on 
their back foot.
    Senator Graham. General Dunford.
    General Dunford. I agree with that, Senator Graham, and I 
believe that the Iraqi security force is clearly going to need 
that kind of support for some time to come.

                          IRAQ RECONSTRUCTION

    Senator Graham. I heard from the Iraqi Prime Minister 
yesterday that to reconstruct Anbar Province and now Mosul is 
about $50 billion.
    Do you agree just as important as having troops there as a 
residual force, we should probably come up with a game plan to 
reconstruct Iraq so we would have leverage in Baghdad, not just 
troops, but an assistance plan for the Iraqi's?
    Secretary Mattis. Secretary Tillerson's meeting today does 
address this issue. It is going to be an international effort. 
It should not be carried wholly by the U.S. taxpayers.
    Senator Graham. We should be part of that?
    Secretary Mattis. We certainly should be part of it, yes.
    Senator Graham. Do you believe it is in the taxpayers' 
interest for us to stay involved in Iraq in terms of 
reconstruction, to regain influence that we may have lost in 
Baghdad?
    Secretary Mattis. I do not see any reason to pull out again 
and find the same lesson.
    Senator Graham. Do you agree with that, General Dunford?
    General Dunford. I do agree, Senator that we need to remain 
decisively engaged in Iraq and in the region.

                        LIFT BCA CAPS ON DEFENSE

    Senator Graham. Do both of you agree that we should lift 
BCA caps on defense spending forever?
    Secretary Mattis. I have seen no value to the BCA caps in 
the past years, so I certainly would not take issue, Senator.
    General Dunford. I think I can concur with that without 
hesitation, Senator.

                             SEQUESTRATION

    Senator Graham. Is it fair to say that the sequestration 
has done a lot of damage to our military capabilities and 
readiness?
    Secretary Mattis. It has done more damage to our readiness, 
sir, than the enemies in the field.
    General Dunford. Senator, it has not only done damage to 
our readiness, but I think it also has been very inefficient 
use of resources that the taxpayers have given us.
    Senator Graham. I am glad you all did not beat around the 
bush. 2018 is 603 for defense by the Trump Administration. 
Senator McCain has a defense budget of 640. Who is right? 
Secretary Mattis.
    Secretary Mattis. Sir, if you think I am going to pick a 
fight with the chairman of the Senate Armed Services 
Committee----
    [Laughter.]
    Senator Graham. Let's put it this way, no, I do not, I 
would not want to do that myself.
    [Laughter.]
    Senator Graham. The point is that more defense spending is 
needed but what are the limitations on increased defense 
spending?
    Secretary Mattis. Sir, we have to make certain what we ask 
for is executable and that we can sustain it, but what I need 
to do, Senator, is complete the strategy review that I am doing 
right now so I can come to you with a compelling reason why the 
American people have to sacrifice this money out of their 
pockets for national defense.

                        BUDGET BASED ON THREATS

    Senator Graham. General Dunford, in 10 seconds, you can 
take a little longer, do you not agree that we need a budget 
based on the threats of the day, the potential threats of 
tomorrow, to win the wars we may engage in, and deter wars that 
we may never have to fight? That is what the budget should be 
about, not a number.
    General Dunford. Senator, I agree. The one thing in the 
context of the previous question, I work very close with the 
Secretary to make sure this is exactly what we deliver. We owe 
you the right prioritization of capabilities that we need to 
have within the top line that we have been given, in the 
context of exactly the dynamic you just described.
    Senator Graham. Both of you feel we can spend $30 billion 
wisely between now and the end of September?
    Secretary Mattis. We do, sir.
    General Dunford. Senator, I am confident we can.
    Senator Graham. Thank you both.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you, Senator. Thank you all, our 
distinguished panel of witnesses, members of the committee, and 
staff who have helped us with this hearing.
    We hope you will respond to any written questions that we 
may have as follow up, following the hearing today. We would 
request that you would respond to such a request in a 
reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. James N. Mattis
             Question Submitted by Senator Susan M. Collins
                    montenegro's accession into nato
    Question. Since Montenegro received its invitation to join NATO 
last year, 25 of 28 NATO legislatures have ratified Montenegro's 
accession into NATO. The Senate has not yet done so, though I believe 
there is strong support for Montenegro's bid to join NATO. Maine's 
National Guard has assisted the Ministry of Defense there to make 
progress towards meeting NATO standards for the past decade. Do you 
believe that Montenegro's accession into NATO could help impede Russian 
efforts to diminish the role of NATO and divide the West?
    Answer. Montenegro is 800 miles from Russia and poses no 
geopolitical threat to that country. Despite this, Russia has actively 
opposed Montenegro's NATO bid and has taken measures to shape public 
opinion against NATO throughout the Western Balkan region. Russia also 
interfered in Montenegro's October 2016 national elections. 
Montenegro's NATO membership would provide a powerful rebuke to 
Russia's malign influence in the Western Balkans and would demonstrate 
that no third country has a veto over NATO's decision to admit new 
members. Montenegro's NATO membership would also confirm that all 
nations in the region are free to choose their own alliances and 
partnerships without fear of outside coercion and intimidation.
                                 ______
                                 
                Question Submitted by Senator Roy Blunt
  active protection systems (aps)/eastern europe & russian aggression
    Question. Secretary Mattis and General Dunford, as you are well 
aware, Russian aggression in Eastern Europe is a top concern among many 
of our allies in the region. The Army has been working on active 
protection systems (APS) to meet current threats by our troops. In 
April 2016--the Army responded to a letter from me that it was ``moving 
rapidly to evaluate selected mature'' APS technologies on an 
``accelerated timeline.'' APS technology is already fielded and combat 
tested, with the Israelis successfully deploying the Trophy APS system. 
However, according to open source and Army statements, the current APS 
developmental program of record, (Modular Active Protection Systems or 
MAPS), is on a timeline to try and field a system in 5--10 years. Thus, 
I am concerned that we are way behind the threat. There was no funding 
requested in the fiscal year 2017 Supplemental submitted last week. My 
interest is to help the Army achieve its stated objective to field 
these systems as rapidly as possible--we cannot wait any longer given 
the threat in multiple theaters. I appreciate your support in general 
for meeting the threat, but we really must work to field this as soon 
as possible. Given this reality, what is the plan to transition from 
testing these systems to procuring them this year?
    Answer. Prior to any procurement fielding decisions, the Army must 
conduct additional tests assessing APS impacts to overall platform 
performance, interactions with other Army systems, and all relevant 
safety conditions. The Army is currently conducting an expedited 
NonDevelopmental Item (NDI) risk reduction effort to install and 
characterize three different APS and will make a decision on how to 
proceed in September 2017.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                 cyber capability in the national guard
    Question. U.S. Cyber Command has developed a robust capability to 
defend DoD networks that far surpasses the rest of the Federal 
Government and the private sector. It seems that the National Guard may 
be uniquely positioned to bring some of that cybersecurity expertise to 
the nation's critical infrastructure sectors under Title 32 authority. 
Secretary Mattis, do either your fiscal year 2017 supplement or fiscal 
year 2018 budget requests include funding to increase defensive cyber-
capacity within the National Guard?
    Answer. DoD's fiscal year 2017 budget supplemental request includes 
$22 million for collective training and sustainment for the Cyber 
Mission Force, which includes elements of the Air National Guard. I 
cannot yet speak to the Department's fiscal year 2018 budget request as 
it is still being finalized.
                        fraud, waste, and abuse
    Question. An internal DoD report surfaced in December that 
identified $125 billion in potential savings over 5 years, that was 
scuttled in early 2015. The projected savings, if thoughtfully pursued, 
might have precluded our current need for a budget supplement to 
rebuild military readiness. Peace through strength starts with 
efficiency, the kind of efficiency that maximizes the lethality of 
every dollar spent. Secretary Mattis, how do you plan to promote 
efficiency and transparency within your Department in order to ensure 
that every appropriated dollar is responsibly spent?
    Answer. Management Reform is one of my top three initiatives. As 
announced on January 31, 2017, the fiscal year 2019--2023 Defense 
Program review will concentrate on an ambitious reform agenda, which 
will include horizontal integration across Department of Defense 
components to improve efficiency and take advantage of economies of 
scale. I have tasked the Deputy Secretary of Defense to assemble 
appropriate cross-functional teams to identify and build plans for 
continuing to reform DoD business practices and to generate funds that 
can be used to support my top priority of building a more lethal and 
effective force to support the nation's priorities. I expect to see 
efficiencies beyond those already put in place to be addressed in the 
Department's fiscal year 2019 budget submission. I have also reasserted 
to the staff that the Department will commence Department-wide audits 
beginning in fiscal year 2018, as a means of demonstrating both within 
the Department, and to those outside the Department, that the 
Department is managing the taxpayers' money with credibility. The 
Department of Defense has undertaken numerous efficiency efforts since 
2010 in response to both internal direction from the previous 
Secretaries of Defense and in response to Congressional direction to 
achieve savings and redirect resources to higher priority missions. 
During the fiscal year 2017 programming cycle, the Department 
identified an additional $7.9 billion in efficiencies. The Department 
is continuing to focus on those efforts to ensure we achieve the goals 
set. Both the new and past efforts build on recommendations consistent 
with the 2015 Defense Business Board (DBB) study. The framework laid 
out in the study has become a lens through which the Department views 
its lines of support activities. In addition to the six core business 
functions identified in the DBB study (human resources management; 
healthcare management; financial flow management (to include 
improvements in cost accounting); supply chain and logistics 
management; acquisition and procurement management; and real property 
management), the Department added base services (including retail 
operations, base lodging, and Morale, Welfare, and Recreation services) 
and information technology management as business focus areas. Long-
term, sustained savings and reform requires the support of and 
endorsement from Members of Congress. To date, members have sometimes 
limited savings opportunities (e.g., declining to enter into another 
Base Realignment and Closure round) for a variety of reasons. Candidly, 
the institutional reforms that are needed to effect additional savings 
are going to reduce jobs and spending across the United States in some 
activities, while the reallocation of funds to readiness and 
recapitalization will in turn open up new jobs and opportunities in 
others. I will remain hopeful that the Members will work with the 
Department to effect the necessary changes.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                              cyber forces
    Question. Cyber force missions are growing, and it is clear that 
cyber forces need to increase throughout the services. Unfortunately, 
there exists a training backlog that prevents cyber warriors from 
getting the training they need in a timely manner. What options are 
being pursued to alleviate this backlog? Additionally there are so few 
training spots available that this backlog becomes worse in the Guard 
and Reserve components--are you considering making more training 
opportunities available for those serving in the Guard and Reserve who 
wish to pursue cyber missions?
    Answer. In late February 2017, the Office of the Secretary of 
Defense (OSD), Office of the Principal Cyber Advisor, hosted a senior 
leader review with the Military Services focusing on manning and 
training of the cyber workforce. The Services reported on various 
initiatives and indicated no challenges or major training backlogs in 
meeting mission requirements. However, a delay currently exists in 
acquiring the appropriate clearances for personnel attended training, 
which extends the military cyber training timeline. Despite this 
challenge, the Cyber Mission Force (CMF) training pipeline has been 
resourced and scaled to support 133 CMF teams reaching full operational 
capability by 2018. United States Cyber Command established the Joint 
cyber training standards and defined individual work roles to which all 
Joint cyber forces will be trained. The result of this work ensures 
Military Service training capabilities and capacity meet the 
requirements for individual feeder courses, foundation courses, and 
position specific training across the CMF training model continuum. The 
most common delay for commencing training is misaligned prerequisites 
for National Security Agency sponsored courses. One example of this 
delay is the time needed for inbound students to complete the required 
security in-processing for the scheduled training. We are working 
closely with all the Services to ensure adequate training and 
opportunities, including for the Guard and Reserves, and addressing 
existing backlogs.
                        air fleet modernization
    Question. Secretary Mattis, one of your priorities is modernizing 
the air fleet. Are you considering options such as low-cost light-
attack platforms to meet that objective? How do you intend to leverage 
industry research and development for use by the U.S. Armed Forces as 
it relates to procurement?
    Answer. Yes. The Air Force is pursuing a non-developmental, off the 
shelf light attack aircraft intended for fielding within 2 years. The 
OA-X is anticipated to be an off-the-shelf aircraft, fleet additive, 
cost-effective and intended for permissive environment capability. 
Envisioned Counterland missions include Close Air Support, 
Interdiction, Forward Air Controller, Combat Search and Rescue, Strike 
Coordination and Reconnaissance, Armed Reconnaissance, and other 
missions. The OA-X will relieve some enduring counterterrorism mission 
costs and operational demand; allows 4th/5th generation aircraft to 
train for highly contested fights, and preserves 4th/5th gen service 
life; will increase JTAC training support aircraft availability, 
security cooperation/building partnership capacity opportunities, and 
increase Combat Air Force fleet size providing more cockpits for 
fighter pilot absorption.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                            nato reassurance
    Question. For the last few years, the United States has invested 
considerable funding and efforts in the European Reassurance 
Initiative, in response to Russia's aggressive behavior in Europe. How 
important is it for U.S. officials to publically reassure our allies 
when seeking to counter influence campaigns and deter future aggressive 
actions, do the President's statements, including ``tweets'' that 
criticize or misrepresent positions of NATO Members, concern or confuse 
our European allies, and how should we be prepared for Russian 
intelligence services to make use of those ``tweets'' to execute their 
information operations strategies over the next few years?
    Answer. Russia seeks to create and exploit political divisions 
within Western societies and the Euro-Atlantic community in an attempt 
to ``divide and conquer.'' In response, our Allies look to the United 
States for an enduring defense commitment. This steady commitment helps 
to reassure our Allies and also assists them in justifying their own 
defense investments in difficult domestic political environments. Mixed 
or critical messages from U.S. leadership can be of great concern for 
Allies, especially those that feel most threatened by Russia. Russia 
will seize upon any mixed messaging it can to chip away at NATO 
solidarity. The $3.4 billion 2017 European Reassurance Initiative (ERI) 
funding request is a clear and visible demonstration of the United 
States' commitment to NATO, European security, and deterring Russian 
aggression. It is critical that we maintain consistent messaging to 
signal our resolve and maximize the impact of these investments.
                             isis strategy
    Question. You are charged with putting together and executing a 
strategic plan to destroy ISIS. When discussing the Department's plan, 
Pentagon Spokesman Captain Jeff Davis said that it, ``will address ISIS 
globally, and it is not just a DoD plan . . .  We're charged with 
leading the development of the plan, but it absolutely calls upon the 
capabilities of other departments.'' How important will the military's 
civilian partners like USAID and the Department of State be in the 
fight against global terrorism, and how do you plan to integrate them 
into your counter-ISIS strategy?
    Answer. The preliminary plan to defeat ISIS represents the United 
States Government plan, and included inputs from the State Department, 
the Department of Homeland Security, the Treasury Department, the 
Department of Justice, and the Intelligence Community. This plan 
identified both civilian and military efforts central to achieving the 
defeat of ISIS. Only a balanced approach that identifies and adequately 
resources military and civilian-led efforts will yield enduring 
success. The Defense Department will continue to work closely with our 
interagency partners to refine and implement a strategy to defeat ISIS.
                  interagency cooperation in the field
    Question. In recent testimony on Capitol Hill, both General Votel 
and General Waldhauser highlighted the importance of collaboration 
between the military and the State Department and USAID in promoting 
U.S. national security interests abroad. General Waldhauser 
specifically praised our civilian agencies, stating that ``to protect 
and promote U.S. national security interests . . . diplomacy and 
development are key efforts, and our partnership with the Department of 
State and the U.S. Agency for International Development (USAID) is key 
to achieve enduring success.'' Can you share any examples from your 
personal experience illustrating why the partnership between our 
military and its civilian counterparts works and is so important to 
advancing U.S. national security interests?
    Answer. Although our military is unparalleled in combat operations, 
effecting the critical transition to host-nation civilian governance 
and building institutions require skills and capabilities principally 
found in the civilian departments and agencies. We are witnessing this 
challenge in Afghanistan. In addition, the civilian functions of 
development and diplomacy play a key role in countering extremism, 
strengthening justice systems and delivery, advocating for human 
rights, and enhancing adherence to the rule of law. The Department of 
State and the U.S. Agency for International Development, among others, 
engage globally on these issues on a daily basis. Their work is 
critical in helping the United States avoid combat operations and in 
transitioning to peace.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                              north korea
    Question. Secretary Mattis and General Dunford, North Korea has 
conducted five nuclear weapons tests and is developing ballistic 
missiles capable of hitting the United States and our allies with 
nuclear weapons.
    Secretary Mattis, do you believe that Kim Jung-un is willing to 
negotiate away North Korea's nuclear weapons and ballistic missile 
programs? [If yes], what do you believe North Korea would require of 
the United States and our allies in such a negotiation? [If no], given 
his refusal to negotiate, how can the United States and our allies 
deter aggression by the North? Secretary Mattis, would you support 
returning U.S. nuclear weapons to South Korea to deter the North?
    Answer. We will provide you a fuller answer separately in 
classified channels. In general, however, North Korea's nuclear weapons 
are prohibited under multiple United Nations Security Council 
resolutions. The United States has been clear and consistent that North 
Korea's actions are counterproductive to the ends Kim Jong Un seeks. 
The United States will not be deterred from the defense of the Republic 
of Korea and our other allies and partners. North Korea's nuclear 
capabilities will not provide North Korea the freedom of action it 
seeks. North Korea's current course is dangerous and counterproductive 
and will only lead to further isolation. We have successfully deterred 
a large-scale North Korean attack on the Republic of Korea through a 
robust military posture on the Korean Peninsula and in the region, 
regular defensive exercises, and overwhelming military capabilities. We 
have made clear to North Korea on multiple occasions that any attack on 
our allies will be met with an effective and overwhelming response. In 
regard to your question about deploying nuclear weapons to the Korean 
Peninsula, we do not discuss the location of our strategic deterrent. 
We remain firmly committed to our extended deterrence commitments to 
the Republic of Korea.
     defense department expenditures for trump adult children trips
    Question. According to a recent Washington Post article, the Secret 
Service and the State Department paid nearly $100,000 in hotel bills 
alone to support a recent Trump Organization promotional trip by the 
President's son, Eric, to Uruguay. This cost does not include U.S. 
Government personnel costs, per diem, transportation or other 
incidental costs. It also does not cover the cost of any support the 
military may have provided, including the use of military aircraft.
    Secretary Mattis, has the Department of Defense provided any 
support, including the use of military aircraft, to Eric or Donald 
Trump Jr. in the course their travel on behalf of or related to the 
Trump Organization? [If yes,] what support has the military provided? 
Can you give us a rough sense of how much this cost? [If yes,] can you 
tell me all trips taken by Eric or Donald Jr. for which the military 
provided support? [If yes,] has the Department had to decline or delay 
other travel requests because of trips being taken by the President's 
adult children? [If yes,] during these trips, have Eric or Donald Jr. 
been accompanied by individuals who do not work for the government? 
Secretary Mattis, are there any policies in place under the current 
Administration concerning Department of Defense support for non-
official business trips by members of the president's family? [If yes,] 
does that policy require any member of the President's family to 
reimburse the government for costs incurred by the government in 
support of non-official business?
    Answer. The Department of Defense has not provided any support for 
Eric or Donald Trump Jr. in the course of their travel on behalf of or 
related to the Trump Organization. We are not aware of any specific 
policies in place under the current administration concerning 
Department of Defense support for non-official business trips by 
members of the president's family. Travel undertaken with the president 
on military aircraft is controlled directly by the White House.
                       new nuclear cruise missile
    Question. General Mattis, I am deeply concerned by the Air Force's 
program to build a new nuclear cruise missile, known as the Long Range 
Stand-Off weapon (LRSO). During your confirmation hearings, you said 
you wanted to study the role this new nuclear weapon would play in 
maintaining deterrence.
    General Mattis, do you believe that building a new nuclear cruise 
missile is essential for maintaining deterrence? Do you believe our 
ground- and submarine-launched ICBM's, as well as air-dropped gravity 
bombs, are insufficient to preserve deterrence in the absence of an 
air-launched cruise missile? During a House Armed Services Committee 
hearing on March 8, 2017, General Selva, the Vice Chairman of the Joint 
Chiefs of Staff, argued that the United States should build a new 
nuclear cruise missile in order to have something that the U.S. could 
trade away in any future negotiations with our adversaries. Secretary 
Mattis, would you support an air-launched cruise missile ban as alluded 
to by General Selva?
    Answer. The United States' nuclear deterrent remains the bedrock of 
our national security. A fundamental role of nuclear weapons is to 
deter a nuclear attack against the United States, our allies, and 
partners. Such an attack poses the only existential threat to the 
Nation. In addition to deterring a nuclear attack, a robust, flexible, 
and survivable U.S. nuclear arsenal underpins the U.S. ability to 
deploy conventional forces worldwide; provides the President with 
credible response options to strengthen deterrence; and supports U.S. 
nonproliferation goals by extending deterrence to allies and partners, 
thereby dissuading them from developing their own nuclear weapons. The 
current recapitalization plans for all three legs of the Triad, and for 
associated command and control systems, are intended to provide the 
forces and capabilities necessary to achieve these important national 
security objectives in a cost-effective manner.
    We are currently conducting a Nuclear Posture Review. This review 
will account for a range of views, and will consider issues pertaining 
to each leg of the Triad, including the LRSO program. I cannot support 
a hypothetical arms control treaty regarding air launched cruise 
missiles because the details would matter. Any such treaty would have 
to serve U.S. national security interests--a determination that is 
contingent upon the answers to questions that are context-specific, 
such as whether the treaty would be effectively verifiable. I will say 
that we would have zero leverage to bring other countries to the 
negotiating table if we weren't moving forward with the Long-Range 
Standoff Weapon. But ultimately the rationale for retaining an air-
launched cruise missile in the nuclear triad is the unique and 
important role it plays in deterring nuclear attack, reassuring allies, 
and achieving U.S. objectives if deterrence fails.
                        new start implementation
    Question. The New START treaty requires the United States and 
Russia to draw down to no more than 1,550 deployed warheads and 800 
total launchers by February 5, 2018. The Treaty expires in 2021, but it 
can be extended by 5 years if both sides agree to do so. Secretary 
Mattis, do you believe that compliance with New START is in our 
strategic interest? Secretary Mattis, would you support extending New 
START to 2021 as permitted by the treaty?
    Answer. I believe that compliance with the New START Treaty is in 
our strategic interest. However, like any arms control agreement, we 
should continually assess Russian compliance and whether the agreement 
remains in our national interest. We are conducting a Nuclear Posture 
Review to ensure that our nuclear deterrent is modern, robust, 
flexible, resilient, ready, and appropriately tailored to deter 21st-
century threats and reassure our allies. This review will account for a 
range of views, and will consider issues such as the possible extension 
of the New START Treaty. Even so, the United States cannot extend the 
Treaty by itself. Extension will require Russia's agreement and its 
continued compliance.
                      defense science board report
    Question. Secretary Mattis, I recently joined 12 other Senators in 
sending a letter to you concerning a report by the Defense Science 
Board entitled, ``Seven Defense Priorities for the New 
Administration.'' The report recommended ``a more flexible nuclear 
enterprise that could produce, if needed, a rapid, tailored nuclear 
option for limited use.'' The Board also suggested that it may be 
necessary to resume nuclear weapons testing. The United States already 
has so-called ``low-yield'' nuclear weapons. In fact, right now we are 
modernizing the B61 gravity bomb at an estimated cost of $10 billion.
    Secretary Mattis, do you believe that the United States needs 
additional ``low-yield'' nuclear weapons to preserve deterrence? The 
directors of our three nuclear weapons labs stated in 2015 that the 
U.S. is in a better position to maintain the nuclear arsenal now than 
it was during the era of nuclear testing, which ended more than 20 
years ago. Secretary Mattis, do you have any reason to believe that the 
United States should resume testing?
    Answer. Effective nuclear deterrence is the Department's highest 
priority mission. The ability to deter nuclear attacks is integral to 
the central objective of defending our vital interests. I believe our 
nuclear deterrent must be flexible and capable to respond to a wide 
range of threats. We are conducting a Nuclear Posture Review to ensure 
that our nuclear deterrent is modern, robust, flexible, resilient, 
ready, and appropriately tailored to deter 21st-century threats and 
reassure our allies and partners. This review will inform any future 
changes to our nuclear policy, strategy, and capabilities. I do not 
have any reason to believe we should resume nuclear testing at this 
time. The Stockpile Stewardship Program (SSP) is a robust scientific 
program intended to sustain and assess the nuclear weapons stockpile 
without the use of underground nuclear tests and has enabled a U.S. 
nuclear test moratorium for more than 24 years.
                         nuclear posture review
    Question. Secretary Mattis, President Trump's memorandum on 
``Rebuilding the U.S. Armed Forces'' requires you to undertake a new 
Nuclear Posture Review. Quite frankly, I am troubled by recent 
assertions by the Defense Science Board and Obama Administration 
officials like Frank Kendall that there is even such a thing as a 
``limited use of nuclear weapons.''
    Secretary Mattis, do you believe the United States should 
unequivocally state that the sole purpose of nuclear weapons is to 
deter their use by others? Secretary Mattis, do you believe it is 
possible to fight and win a ``limited'' nuclear war?
    Answer. We are currently conducting a Nuclear Posture Review. This 
review will account for a range of views, and will consider the roles 
of nuclear weapons in our national security strategy and issues 
pertaining to U.S. declaratory policy. Our policy is not to fight and 
win limited nuclear wars, it is to deter nuclear attack. The current 
threat environment presents a complex set of challenges which includes 
the need to deter both large-scale nuclear attacks and attacks in which 
an adversary would employ only a small portion of its nuclear weapons 
while withholding its remaining arsenal to threaten further attacks. An 
effective and prudent strategy capable of deterring both limited and 
large-scale attacks requires that we ensure the President has a range 
of effective response options. If deterrence fails, in a limited way we 
will need response options that can restore deterrence of nuclear use.
             fiscal year 2017 defense supplemental request
    Question. Secretary Mattis, the supplemental request includes $2 
billion to implement a ``new counter-ISIS strategy.'' Secretary Mattis 
and General Dunford, can you please detail what the President's new 
strategy is, given this request for new funds? Secretary Mattis, this 
supplemental request would partially offset $30 billion in increases in 
defense spending by decreasing non-defense programs by $18 billion this 
year. Secretary Mattis, do you support increasing ``defense'' spending 
at the expense of ``non-defense'' spending? Do you believe that 
spending designated as ``non-defense'' plays any role in protecting our 
national security?
    As this Committee begins to discuss funding for fiscal year 2018 
and the President's request to move $54 billion from non-defense to 
defense, how would you recommend that we balance the needs of your 
Department vs. others like the State Department or domestic law 
enforcement? Secretary Mattis, the supplemental request includes $25 
billion in additional fiscal year 2017 base funding for the Department 
of Defense. Of that amount, approximately half ($15.6 billion) would be 
for the procurement of major weapons systems as well as research and 
development. It was my understanding that the military had immediate 
warfighting and readiness needs that exceeded the funding currently 
available to the Department. If this supplemental request is so time-
sensitive and critical that it could not wait for the fiscal year 2018 
Budget, why does it include funding for longer term procurement and 
research priorities?
    Answer. The proposed strategic framework to defeat ISIS, drafted in 
response to National Security Presidential Memorandum--3 directing the 
development of a preliminary draft strategy and plan to defeat ISIS, 
draws upon all elements of national power--diplomatic, military, 
financial, cyber, intelligence, and public diplomacy--with a focus on 
applying simultaneous pressure on ISIS globally. It commits to a ``by, 
with, and through'' approach to defeat ISIS in Iraq and Syria and its 
global branches and networks. Specific details of the interagency plan 
are pending final approval. Effective, integrated, and sustainable U.S. 
Government solutions to complex security problems require a balance of 
resourcing across defense and non-defense spending. The Department's 
request for additional funding reflects the fact that the security 
situation facing our country has become more challenging and that our 
military needs additional resources to meet the demands of that 
emerging environment. I certainly do. Around the world, diplomacy and 
development solutions remain our preferred options to secure our 
national security interests, but we must be capable of prioritizing 
those efforts that relate to our security. Non-defense efforts can 
reduce the need for our military forces to be employed. The military 
plays a complementary role by providing needed stability that enables 
diplomatic and economic options.
    I defer to the Office of Management and Budget on the necessary 
balance of resources across agency total obligating authorities. 
Effective, integrated U.S. Government solutions to complex security 
problems require exactly that--a balance of resourcing across the 
diplomatic, development, defense, law enforcement, and other security-
related functions of our national security apparatus. Secretary Mattis, 
the supplemental request includes $25 billion in additional fiscal year 
2017 base funding for the Department of Defense. Of that amount, 
approximately half ($15.6 billion) would be for the procurement of 
major weapons systems as well as research and development. It was my 
understanding that the military had immediate warfighting and readiness 
needs that exceeded the funding currently available to the Department. 
Resourcing readiness and fielding a healthy joint force require more 
than just closing near-term gaps in areas such as training and 
maintenance. We also must address longer-term shortfalls. In some 
cases, we need to acquire new equipment to increase the inventory of 
forces that are ready to deploy. Fiscal constraints have prevented the 
Services from addressing their long-term readiness concerns for years, 
and delaying the start of this effort will continue to exacerbate both 
near- and long-term readiness.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                authorization for use of military force
    Question. If Congress were to approve an AUMF (Authorization for 
use of Military Force), what would you recommend we focus on for the 
goal of the mission and the endgame of U.S. military action inside 
Syria? Are we going to engage in another risky round of regime change, 
a proposal that could lead to direct conflict with Russia, or would 
engagement be limited to counterterrorism against ISIL? Or ISIL and 
other terrorist groups? Or a mixture of both regime change and 
counterterrorism?
    Answer. I believe the 2001 AUMF provides sufficient authority for 
the Department to use force in response to the terrorist threats we are 
confronted with, including against ISIS. The defeat of ISIS remains the 
U.S. objective in Syria, and the Department of Defense will continue to 
focus our efforts on achieving that objective. However, enacting a new 
or updated AUMF that expressly includes ISIS in addition to al-Qa'ida 
and the Taliban would provide a helpful validation of the American 
people's resolve and would demonstrate that Congress remains committed 
in this fight.''
                       syria strategy development
    Question. What role has Steve Bannon played in developing a 
strategy in Syria? Do you speak with him regularly, and have any of his 
opinions overridden the professional military advice given by yourself 
or other professionals at the Pentagon?
    Answer. We defer to the White House on Mr. Bannon's specific role 
in developing strategy.
                   national security decision making
    Question. Do you believe that political strategists like Steve 
Bannon should be a regular part of national security decisionmaking, 
and given a permanent, formal role within the National Security 
Council?
    Answer. We defer to the White House on Mr. Bannon's specific role 
in national security decisionmaking.
                          white house advisors
    Question. What is your relationship to your--as the Washington Post 
put it--``commissar''--a White House appointed advisor in each cabinet 
agency? What is the role of this White House advisor to oversee your 
work and have that person in any way tried to constrain your ability to 
carry out your legal duties.
    Answer. The relationship with the Senior White House Advisor is a 
positive one. He supports White House and DoD policy, program, and 
personnel efforts and serves as a representative of the Secretary of 
Defense to the White House and other executive organizations. The White 
House Advisor position does not constrain the ability to perform my 
legal duties.
           fiscal year 2017 additional appropriation request
    Question. Does the fiscal year 2017 supplemental address the 
unmanned aerial vehicle or UAV threat from terrorist organizations, 
including the use of off-the-shelf UAVs, many manufactured in China, to 
conduct ISR and other activities against allied troops?
    Answer. Yes, there is a total of $404.1 million requested in the 
fiscal year 2017 supplemental to support Counter-small Unmanned Aerial 
Vehicle initiatives in response to Urgent Operational Needs for ongoing 
operations and for locations in the United States. The Department is 
already investing over $425 million in reprogrammed and specifically 
provided funds to aggressively pursue several efforts to defeat enemy 
Unmanned Aerial Vehicles threats and protect sensitive areas within the 
United States and critical operations of U.S. forces abroad. The 
additionally requested funding allows us to continue these investments 
and provide more capability to fulfill recently validated requirements.
                        directed energy weapons
    Question. Is the Department of Defense considering increased use of 
directed energy weapons, both kinetic and non-kinetic, to address the 
threat [of the use of off-the-shelf UAVs]?
    Answer. Countering the commercial-off-the-shelf small-UAS threat is 
a high priority within the Department of Defense (DoD). Recently, the 
Joint Improvised-threat Defeat Organization (JIDO) conducted a small-
UAS Hard-Kill Challenge (HKC) to evaluate current industry and DoD 
technologies that could be fielded to address this threat. Several high 
energy laser systems were evaluated as part of the HKC. JIDO will 
publish the HKC findings in a final report by the end of May 2017. The 
Services and JIDO are also working to develop and demonstrate other 
directed energy systems that may have potential for defeating swarms of 
small-UAS. DoD will evaluate the maturity of these technologies along 
with their ability to meet urgent needs and service requirements.
                              diux program
    Question. How is the Department of Defense utilizing the DIUx 
program to address these [off-the-shelf UAV] threats?
    Answer. Counter-Unmanned Aerial Systems (UAS) is a priority focus 
within Defense Innovation Unit Experimental (DIUx) autonomy efforts. 
The commercial sector has much to offer in the protection of public 
venues, and in other technology that can help defeat the UAS threat. 
DIUx is partnering with several Department of Defense (DoD) entities to 
quickly identify, evaluate, and field commercial solutions to respond 
to the wide variety of scenarios and environments that DoD faces. For 
instance, DIUx is leveraging unique radio frequency sensors to be 
paired on an M-RZR utility vehicle to provide Marines advanced warning 
of UAS threats. The mobile system will be capable of passively 
identifying, tracking, and defeating threats posed by UAS during the 
day and night, in all weather conditions.
                      syria and iraq in the future
    Question. How are the Department of Defense, the White House, and 
the State Department preparing for a post-ISIL Syria and Iraq?
    Answer. We are working in close coordination with the State 
Department and White House to prepare for post-ISIS Syria and Iraq. 
Military victory alone will not achieve the lasting defeat of ISIS. In 
Syria, the Department of Defense supports State Department-led 
stabilization efforts to work through local partners on governance and 
security after Raqqa is liberated. In Iraq, DoD coordinates with the 
Government of Iraq and United Nations to plan for the stabilization and 
governance of Mosul and other liberated areas.
                         state department cuts
    Question. With the administration proposing major cuts to the State 
Department, does the Department of Defense plan to fill this void to 
help create conditions on the ground to sustain military efforts?
    Answer. DoD is not resourced to make up shortfalls in foreign 
military assistance but will work collaboratively with the Department 
of State to determine how to prioritize security sector assistance 
available under the authorities and appropriations of the Departments 
of Defense and State.
                       violence in syria and iraq
    Question. Who is leading the effort to work with the various 
interested parties in the region to prevent a relapse of violence in 
Syria and Iraq?
    Answer. The Department of State leads the U.S. approach in the 
places where we support stabilization efforts in Iraq and Syria. 
Military victory alone will not achieve the lasting defeat of ISIS. 
Preventing a relapse of violence in Iraq is the responsibility of the 
Government of Iraq, and when appropriate, with the assistance of the 
United Nations, the Coalition and the United States. In Syria, we will 
continue to work with our local partners and the Coalition to 
consolidate gains and build resilience against ISIS reemergence. Both 
Iraq and Syria will require a whole of government effort working by, 
with, and through local partners who take ownership of their own 
communities.
                         nuclear policy review
    Question. I understand that a new nuclear policy review will be 
undertaken soon. Will you voice support with the NNSA continued funding 
for the life extension projects and stockpile stewardship program while 
that review is being undertaken?
    Answer. Yes. The life extension projects and Stockpile Stewardship 
Program are essential to ensuring that U.S. nuclear weapons remain 
safe, secure, and effective.
        funding for the dod's own nuclear modernization programs
    Question. Will you also support robust funding for the DoD's own 
nuclear modernization programs?
    Answer. Yes. The United States' nuclear deterrent remains the 
bedrock of our national security and is DoD's top priority. Funding our 
modernization program is essential.
                         space program funding
    Question. Do you support robust funding for Air Force space 
programs, including research and development?
    Answer. The Department supports research and development (R&D) 
funding of space programs to enable joint Warfighter effectiveness and 
preserve U.S. national security. The Department invests in R&D as 
appropriate to improve capability, reduce cost, and to check adversary 
efforts as they field their own advanced space-based capabilities to 
counter or defeat ours. We must stay ahead of these threats and 
continue to preserve our decisive warfighting advantage in space as 
well as all other domains. The Department carefully considers every 
dollar spent to determine how to best address readiness and lethality 
of the Joint Force, the changing nature of warfare, and perceived 
future challenges to our capabilities. Our budget requests reflect the 
output of a deliberative process that is aimed at striking the proper 
balance among competing budgetary priorities. We appreciate your 
continued support of these efforts.
                            contested space
    Question. Space has become increasingly contested. What is the 
Department's plan to ensure we can replace space assets quickly if 
needed?
    Answer. DoD's space mission assurance strategy uses reconstitution 
of assets, resilient architectures, and defensive operations to ensure 
warfighters have the space-based capabilities they require to perform 
mission essential functions in any operating environment or condition. 
DoD aims to take advantage of new innovations in military and 
commercial space, such as small satellites and commercial launch, that 
are making reconstitution on operational timelines more realistic for 
some capabilities.
                            small satellites
    Question. Does the Department of Defense support the use of small 
satellites, such as those developed by AFRL Operational Responsive 
Space, which can be launched relatively quickly compared to traditional 
satellite programs?
    Answer. Yes.
                     radiation hardened electronics
    Question. Will the fiscal year 2017 supplemental or fiscal year 
2018 budget include funding for the development of new radiation 
hardened electronics, including microchips made from unique materials 
such as graphene?
    Answer. The Department of Defense (DoD) sponsors and performs 
research and development (R&D) in radiation hardened electronics. The 
list of DoD sponsors include the Defense Threat Reduction Agency 
(DTRA), the National Reconnaissance Office (NRO), the Air Force 
Research Laboratory (AFRL), and the Office of the Secretary of Defense 
(OSD) Trust and Assurance Microelectronics Program, amongst others. 
DTRA, in collaboration with the Naval Research Laboratory, has an 
applied research effort looking at beyond silicon applications in 
radiation hardened electronics. This work will continue in fiscal year 
2018 to mature the radiation hardening of these non-silicon 
technologies. NRO is also funding research in new radiation hardened 
electronics, including microchips made from Carbon Nano-tube 
microelectronics, and advanced silicon based microelectronics. In 
addition, AFRL is partnering with the National Aeronautics and Space 
Administration's Jet Propulsion Laboratory for the development of the 
next generation High Performance Space Computing ``chiplet'' to address 
future space mission microprocessor needs.
                          laser communications
    Question. Is the Department of Defense exploring laser 
communications for secure satellite communications or communications 
with UAVs?
    Answer. Yes, the Department of Defense is exploring laser 
communications for secure satellite communications, or communications 
with Unmanned Aerial Vehicles (UAVs). Below is a summary of these 
efforts. The Office of Naval Research is conducting applied research in 
laser communications payloads for small satellites in a partnership 
with the Naval Research Laboratory. This research effort is funded 
through fiscal year 2018 and will contribute to the Office of Naval 
Research Future Naval Capability project on Anti-Access, Area Denial 
Communications Operations using Nanosats. The Defense Advanced Research 
Projects Agency (DARPA) is investigating laser communications for 
secure, low latency, GEO-to ground communications. This work leverages 
COLT (Compact Lasercom Terminal), a previous Air Force Research 
Laboratory (AFRL) experiment, which was demonstrated in 2015 by AFRL 
ANGELS (Automated Navigation and Guidance Experiment for Local Space) 
spacecraft in nearGeosynchronous orbit. DARPA has fiscal year 2017 
funding to continue improvements to the COLT system on active steering 
and bidirectional communications.
                              diux program
    Question. Do you support continuing the DIUx program, also known as 
the 3rd offset, started by your predecessors?
    Answer. Yes, I do. Accelerating the development, procurement, and 
integration of commercially-derived capabilities is a critical concern 
of the Department of Defense and the fulltime mission of Defense 
Innovation Unit Experimental (DIUx). DIUx provides access to high-tech 
companies and their leading edge technologies, not only in Silicon 
Valley, but across the Nation.
                         diux and national labs
    Question. I have asked DIUx to leverage the work done by our 
national labs and the businesses that support them as well as the 
private sector. This committee also passed language to encourage DoD to 
do the aforementioned as well. Will you work with the DIUx leadership 
to ensure they work with our national labs to develop R&D which could 
benefit the future force?
    Answer. Yes. Defense Innovation Unit Experimental (DIUx) is already 
exploring partnerships with Department of Defense service labs. Members 
of the laboratories' technical staff are co-located at DIUx and 
participate in program development and project execution, a scientist-
in-residence activity. In addition, DIUx regularly calls upon subject-
matter experts at the national labs, federally Funded Research and 
Development Centers, and University Affiliated Research Centers to help 
evaluate the technical feasibility of solutions proposed to address DoD 
customer problems. These efforts will continue.
                             diux footprint
    Question. DIUx, through the leadership of Raj Shah has begun to 
make the type of business to military connections originally 
envisioned. I have been working to expand the footprint of DIUx to 
other communities that are rich in research and development. For 
example, Albuquerque, NM, which is home to Sandia National Labs and 
multiple businesses that support it is an ideal location for DIUx 
expansion. How would an increase in funding to $90m allow DIUx to grow 
its capabilities and would you support such an increase in order to 
multiply efforts as part of the 3rd offset?
    Answer. With a larger budget, Defense Innovation Unit Experimental 
(DIUx) could develop and test more diverse technologies in key 
commercial areas of interest, such as artificial intelligence, 
autonomy, information technology, human systems, and space. In 
addition, DIUx could expand its efforts in additional locations.
                    state foreign operations budget
    Question. Do you think the proposed cuts to the State Foreign 
Operations Budget will harm our national security?
    Answer. The proposed reductions will have to be managed with great 
care. Foreign military assistance builds lasting relationships with the 
United States. It supports the U.S. industrial base by enabling 
partners to procure U.S. equipment and platforms. It deepens 
interoperability and enables partners to manage their own security 
challenges. Current discussions propose to shift some grant aid to 
loans. Many countries may not qualify for loans and may look to other 
countries for assistance. The United States must be willing to assume 
risk in lending to less credit-worthy partners. Reduced grant aid may 
cause some countries to make choices that are not in the best interests 
of the United States.
                        foreign policy calculus
    Question. Do you believe that diplomacy and aid should still be a 
major part of our overall national security and foreign policy 
calculus?
    Answer. I do. Our military has tremendous capability to prevail in 
conflict. However, we rely significantly on the efforts of U.S. 
development and assistance professionals and our diplomats to minimize 
the causes of conflict. They play the key role in helping countries 
transition to legitimate civilian authority. Our government has rightly 
worked in recent years to tie defense, diplomacy, and development 
together to ensure that we benefit from these communities' comparative 
advantages, and to leverage the right skills for each foreign policy 
task.
         state department cooperation with foreign governments
    Question. Are you concerned that cuts to the State Department's 
budget will impact our diplomats' ability to aid Department of Defense 
efforts with foreign governments?
    Answer. I am. I believe that any reductions will have to be managed 
to ensure that the critical skills found in our Department of State and 
other supporting departments and agencies are sustained at levels that 
adequately support our foreign policy and security goals and 
objectives. Rigorous prioritization of the most critical efforts will 
be required.
                            op-tempo impact
    Question. One of the complaints I have heard is that op-tempo due 
to U.S. commitments overseas is having a negative impact on readiness, 
and one reason for the emphasis on readiness in the fiscal year 2017 
supplemental and the skinny budget. Given those concerns, do increased 
troop levels in Syria harm future readiness and prevent the U.S. 
military from investing in the R&D and other efforts to ensure near 
peer competitors do not overtake us militarily?
    Answer. Global operational demand over the past 15 years has put a 
strain on the readiness of our Military Services as a whole. Although 
operational demands in certain situations, and for specific force 
elements, can adversely affect our readiness, at this time and in this 
scenario, I do not believe increased troop levels in Syria will 
specifically harm future readiness or prevent the U.S. military from 
continued investment in the R&D and other efforts to ensure near peer 
competitors do not overtake us militarily.
                     movement in the mediterranean
    Question. What is the overall cost to U.S. freedom of movement in 
the Mediterranean if Russia is able to secure Syria and build up its 
basing and anti-access area denial capabilities in the region?
    Answer. As a legal matter, the presence of a Russian base in Syria 
would not change any of our navigational rights or freedoms. As an 
operational matter, we would not tolerate--and would challenge--any 
attempt to restrict our freedom of movement in the Mediterranean Sea, 
just as we do throughout the world. Regardless, we continue to monitor 
Russian deployments and operations in Syria very closely.
               russia's military and political footprint
    Question. Do you agree with assessments that Putin is attempting to 
challenge the U.S. and our allies by increasing Russia's military and 
political footprint in the region?
    Answer. Yes. President Putin seeks to return Russia to great power 
status and has chosen to pursue that perception through a zero-sum, 
unconstructive approach. Russia uses malign activities, including 
information operations and cyber activities, to undermine confidence in 
Western institutions and governments and meddle in democratic 
processes. Russia also has shown a willingness to use armed force 
against its neighbors for political gains, violating the tenets of 
sovereignty and territorial integrity and undermining the fabric of 
global security. These actions are a direct challenge to the global 
norms that the United States and our Allies have developed to ensure 
the security of all nations.
                      weapons deployment in korea
    Question. Are there any plans or discussions to deploy nuclear 
weapons to the Korean peninsula for deterrence purposes?
    Answer. We have made clear to North Korea on multiple occasions 
that any attack on the United States, or our allies or partners, will 
be met with a response that is both effective and overwhelming. The 
United States and our regional allies and partners will continue to 
explore the full range of alliance capabilities to strengthen our 
deterrence posture and defense forces, as needed, and evaluate our 
military posture as the threat from North Korea evolves.
                      north korean nuclear threat
    Question. When Secretary Tillerson said diplomacy has failed, and 
that military options were on the table with regards to the North 
Korean nuclear threat, were you given orders by the President or 
National Security Council to develop war plans or other potential 
kinetic strikes against North Korea?
    Answer. The President has stated clearly that North Korea is a top 
priority for this Administration. Although we would prefer a diplomatic 
solution to the North Korean threat, the Department of Defense 
consistently plans for contingencies so that options are available 
should the President need to act. We are exploring the full range of 
diplomatic, security, and economic options, as well as military 
options, to convince North Korea that a stable, peaceful, and 
prosperous future does not arise from its current dangerous course, and 
to compel it to change its behaviors. We will continue to develop a 
comprehensive set of capabilities to counter the North Korean threat.
                       white sands missile range
    Question. I have heard from commanders at White Sands Missile Range 
that the range is in need of serious maintenance and investment in 
order to carry out its long term testing mission. How does DoD rate the 
testing capabilities across our ranges, and what are the priority needs 
for anti-ballistic missile and missile defense testing at WSMR and 
other ranges?
    Answer. The Department of Defense (DoD) rates the test and 
evaluation (T&E) capabilities across our ranges through its biennial 
Strategic Plan for DoD T&E Resources. The Test Resource Management 
Center (TRMC) assesses core Major Range and Test Facility Base (MRTFB) 
capabilities and resources from the aspect of four major elements: 
workforce, funding, infrastructure, and range sustainability. Data 
sources for this assessment include the annual MRTFB budget exhibits, 
the adequacy of the Component T&E budgets, the TRMC-chaired annual 
Infrastructure Readiness Reviews, and MRTFB site visits. White Sands 
Missile Range (WSMR) T&E capabilities are adequate for today's missile 
T&E mission set; however, current investments buttressed against T&E 
range modernization requirements, driven by the development of more 
advanced weapon system capabilities, may soon render today's 
capabilities insufficient to test and evaluate tomorrow's systems. The 
Department's prioritized anti-ballistic missile and missile defense 
testing needs are maintenance and investments in radar and optical 
tracking and telemetry system modernization, launch complex 
revitalization, power upgrades, and communications modernization. 
Financial resources are committed at WSMR to address capability gaps in 
radar and optical tracking modernization and a MILCON infrastructure 
investment in a new Network Enterprise Center. However, the delivery 
and execution of these modernization projects and investments are being 
outpaced by obsolesce, consumption, and expected deterioration and 
capital depreciation. Other ranges (e.g., Reagan Test Site, Pacific 
Missile Range Facility, and the Western Range) have similar priority 
needs for maintenance and investment in range infrastructure, including 
optical, radar, telemetry, flight termination, and mobile 
instrumentation capabilities critical to ballistic missile defense 
flight test and evaluation.
                       uav's with directed energy
    Question. Is DoD looking to employ UAV's with directed energy 
capabilities to take out ballistic threats during the launch phase? 
What would be the cost of employing this type of defense system and how 
much testing would be required before you are ready to deploy such a 
capability?
    Answer. Laser equipped Unmanned Aerial Vehicles (UAVs) offer a 
potential cost effective solution to tracking and disabling the ever-
increasing number and types of adversary ballistic threats. UAVs are 
becoming more common in Department of Defense (DoD) operations, and 
there are a number of promising electric-laser technologies. Lasers 
currently exist that are small enough to be carried onboard UAVs. The 
output power level of electric lasers available today would need to 
increase significantly to be operationally effective for launch or 
boost-phase defense against ballistic threats. Just as important, 
today's laser efficiency and packaging, as well as UAV endurance and 
payload, do not meet boost-phase mission requirements. In a 2016 Boost 
Phase Defense System Report to Congress, the Missile Defense Agency 
estimated a moderate risk boost phase intercept capability could be in 
place by 2030 for slightly under $3 billion. The program included a 
demonstration UAV in fiscal year 2026, 3 production laser UAVs by the 
end of fiscal year 2029, and 6 by the end of 2030. Other current DoD 
programs to develop and field laser equipped platforms and the 
continued evolution of UAVs could reduce the cost and risk of a future 
boost phase capability.
                            cloud computing
    Question. What are DoD's plans in fiscal year 2017 and fiscal year 
2018 to continue IT efforts to move more capabilities to cloud 
computing.
    Answer. The Department plans to move more capabilities to cloud 
computing by:
  --Updating the Department's Cloud Computing Security Requirements 
        Guide (CC SRG) to address cybersecurity challenges and emergent 
        requirements for secure operations in cloud computing 
        environments. Additionally, the DoD's Secure Cloud Computing 
        Architecture prototype is anticipated to reach initial 
        operational capability by the end of 2017, which will extend 
        DoD cyber defenses and protections into the commercial cloud 
        environment.
  --Streamlining the DoD Provisional Authorization process to improve 
        the speed at which commercial cloud services are DoD-approved 
        by leveraging the new Federal Risk and Authorization Management 
        Program's (FedRAMP) accelerated processes and readiness 
        assessments.
  --Establishing cloud contracts to pilot the delivery of market-
        leading commercial cloud solutions on DoD premises. The pilot 
        Contractor-Owned/Contractor Operated (COCO) on-premises cloud 
        environments include DoD's On-Site Managed Services (OMS) and 
        the Army Private Cloud Enterprise (APCE). These environments 
        are anticipated to be fully operational by the end of this 
        calendar year.
  --Establishing standardized cybersecurity/network defense 
        methodologies and approaches to facilitate migration of DoD 
        systems and applications to commercial clouds by providing 
        needed on-going application protection. To accelerate this 
        work, the Department will engage industry to identify 
        innovative approaches and technologies that can help establish 
        and maintain more efficient ways of providing cybersecurity in 
        support of DoD applications migrating and operating within the 
        cloud.
  --Providing training on cloud computing acquisition and contracting 
        for DoD Mission Owners, Program Managers/Functional Service 
        Managers, and contracting specialists. DoD is working 
        collaboratively with Defense Acquisition University to develop 
        online training, to produce content which is accessible online 
        for Program Managers, and to integrate cloud computing related 
        content into Level 3 acquisition courses on a continuous basis.
                        security certifications
    Question. Will DoD be assessing commercial providers for increased 
security certifications in the near future?
    Answer. Presently, the Department of Defense (DoD), in association 
with the Federal Risk and Authorization Management Program (FedRAMP), 
has improved the overall security posture of commercial Cloud Service 
Providers (CSPs) by establishing, managing, and verifying consistent 
standards for authorizing commercial Cloud Service Offerings (CSOs) for 
use within the DoD. As cyber-based threats evolve and through rigorous 
Continuous Monitoring of authorized CSOs, the partnership between the 
Federal Government and industry will help to ensure the identification 
of new threats and the maintenance of a rigorous cybersecurity posture. 
Commercial CSPs undergo rigorous security and compliance audits 
required by various industries (Payment Card Industry, Sarbanes-Oxley, 
etc.), in addition to what is required by the DoD and FedRAMP. Studying 
the overlap of these various industry compliance and security audits 
may reveal opportunities to streamline DoD's authorization process and 
to increase the level of security for CSPs.
                       commercial cloud computing
    Question. How much has the Department of Defense saved by utilizing 
commercial cloud computing versus acquiring its own cloud space and 
``stacking and racking'' servers?
    Answer. Determining tangible cost savings for utilizing cloud 
services is a challenge. There is substantial variety of multi-
generational systems and applications that have evolved throughout the 
Department. Because of this, understanding the complexity of the 
component costs that must be taken into account to utilize cloud 
services is significant. These component costs include the planning, 
integration/re-engineering, migration, and cybersecurity operations. 
Further, many DoD systems/applications are mission critical, National 
Security Systems (NSS) and as such, require DoD on-premises hosting. 
This requires that DoD establish and maintain a hybrid environment of 
commercial cloud options and its own dedicated cloud space. To date, 
DoD is seeing evidence of second order benefits achieved in 
efficiencies not directly related to cost. These include efficiencies 
gained by reductions in workforce required to operate and maintain the 
infrastructure, allowing the shift of this manpower to more critical 
activities (e.g., cybersecurity). DoD anticipates additional savings as 
utilization increases with more DoD workloads transitioning to cloud 
computing services.
                            cloud computing
    Question. Please provide an assessment of each branch of service 
regarding their adoption and use of cloud computing, and what percent 
is currently DoD cloudspace versus commercial cloud space.
    Answer. Our Services have been leaning forward in their adoption 
and use of cloud computing. Each Service has established ``cloud 
support'' organizations (i.e., the Army Application Migration Business 
Office (AAMBO), U.S. Navy's Program Executive Office for Enterprise 
Information Systems (PEO EIS)/Data Center and Application Optimization 
(DCAO) Team, and U.S. Air Force's Managed Services Organization (MSO)). 
These organizations have been established to coordinate planned 
acquisitions for use of commercial cloud services with their respective 
Service, and provide guidance as the Services plan their transitions to 
cloud services. The Defense Information Systems Agency (DISA) provides 
the Cloud Support Office for the Department's ``Fourth Estate'' to 
include Agencies and the Office of the Secretary of Defense. The 
Services' cloud support organizations are still maturing and 
determining their respective roles and responsibilities for their 
constituents. Mission Owners continue to identify data center workloads 
that are cloud compatible, and determine the migration/re-engineering 
and integration support necessary to onboard and transition to cloud 
computing environments. However, most Mission Owners are still in the 
assessment, planning or initial piloting phases of cloud migration. As 
Services migrate and adopt cloud solutions, they will register their 
cloud service use in DISA's System and Networks Approval Process (SNAP) 
Cloud Module for Mission Owner Cloud IT Projects in accordance with the 
March 2017 release of the latest Cloud Computing Security Requirements 
Guide (CC SRG). The data collected in this system will help quantify 
the adoption of cloud computing across commercial and DoD providers. 
With the help of the Services' Cloud support organizations, sufficient 
data will be collected and analyzed to assess each branch of service 
regarding their adoption and use of cloud computing, and what percent 
is currently DoD cloud space versus commercial cloud space.
    Question. How can cloud computing help the Department of Defense 
speed up research and development projects, as well as intel gathering 
and assessment?
    Answer. Defense Mission Owners increasingly need the ability to 
rapidly adapt their systems/applications to emerging mission needs and 
changing cyber threats, with shortened development time, as well as the 
need for increased and accelerated intelligence gathering. Cloud 
environments provide Mission Owners and their developers with ease of 
access to Platform-as-a-Service (PaaS) cloud service offerings for 
faster development and testing. PaaS cloud services enable Mission 
Owners and their developers to deploy a representative environment for 
mission systems/applications in an agile, repeatable and automated way, 
known as ``Dev-Ops.'' Dev-Ops can unify the research, development, 
test, and production environments within the same cloud. Once acquired, 
these environments are expected to reduce the resources and delivery 
time needed due to the integrated, highly automated set of 
capabilities, and standardized tools and processes they provide. The 
Department is looking at the big data analytic capabilities that cloud 
computing provides the Intelligence Community (IC) in its Commercial 
Computing Services (C2S) contract with its' commercial cloud service 
provider. Within DoD, both National Geospatial Agency (NGA) and 
National Reconnaissance Office (NRO) are preparing to start a Secret 
C2S (S-C2S) capability that will expand the availability of cloud 
options for intelligence-related missions within DoD. Using the 
commercial version of available ``big data analytics'' tools and 
programs offered by the IC's commercial cloud service provider, this S-
C2S cloud capability will allow the department to gather, assess, and 
process large and varied classified data sets.
    Question. How is cloud computing being used to improve training and 
assessment of deployable units?
    Answer. Cloud computing efforts have been initiated to improve the 
training of deployable units by accelerating the pace and ease at which 
training is delivered to deployed warfighters. The Defense Logistics 
Agency (DLA) is migrating from their legacy in-house training 
application to an off-premises Software as a Service (SaaS) cloud 
service offering. DLA employees including deployed military members 
will have access to all internal DLA training courses via this cloud-
based learning management system. It will provide employees with access 
to a catalog of hundreds of training courses developed by a leading 
industry provider of courseware. Transition to this SaaS capability is 
expected to be completed within the next twelve months. The 
Department's warfighters who are in deployed/tactical environments 
require Disconnected, Intermittent, and Low-Bandwidth (DIL) 
capabilities to support their efforts and improved training and 
assessment is one of the anticipated outcomes of providing cloud 
computing to these Warfighters. The DoD CIO, Military Services, Defense 
Information Systems Agency (DISA) and other Agencies, the Joint Staff, 
and Combatant Commands continue to analyze and assess cloud computing 
options that can be used for training and assessments of deployed/
tactical forces, based on their mission and cybersecurity requirements.
                            flight training
    Question. Holloman Air Force Base was selected for F-16 FTU 
operations, and it has been assessed that sufficient airspace exists to 
conduct these operations without restrictions. Also, last October the 
Air Force directed Holloman Air Force Base to transfer MQ-9 FTU from 
ACC to AETC (expected completion in fiscal year 2019). As a result 
Holloman is becoming the largest flying training pipeline in the Air 
Force. With a shortage of operational pilots, does the Department of 
Defense plan on investing more resources at AETC bases such as Holloman 
and the 58th SOW at Kirtland Air Force Base?
    Answer. In an effort to mitigate the current shortage of 
operational pilots, the Air Force is taking steps to increase 
maintenance manpower and simulator instructors to increase pilot 
throughput at various Undergraduate Pilot Training bases. It is also 
planning on increasing F-16 FTU capability at Holloman by two 
additional F-16 FTU squadrons, as well as bringing Kirtland Air Force 
Base on-line as the training base for the HH-60G replacement. In terms 
of infrastructure projects, the Air Force has been forced to take risk 
in military construction for years with the priority on new mission 
beddowns as we bring on the F-35A and KC-46A aircraft. Kirtland AFB did 
receive funding in fiscal year 2017 for Combat Rescue Helicopter 
simulator. Holloman AFB also received funding for a hazardous cargo pad 
and taxiway in support of its mission. Our outyear planning will no 
doubt include more such projects as we secure and field a new trainer 
aircraft or T-X.
                         cyber-kinetic training
    Question. I have been a strong supporter of developing a cyber-
kinetic training capability in the U.S. military and have included 
language to accomplish this goal in the past two fiscal years 
appropriations bills. With Russia's use of hybrid warfare, do you 
believe that developing this training capability should be a high 
priority for the Department of Defense, and will DoD work with those 
developing this capability currently to help make this a core 
capability for our armed forces who may be faced with a cyber-kinetic 
threat in the future?
    Answer. As the Department pursues its core missions in cyberspace 
of protecting DoD information networks, defending the Nation against 
cyberattacks of significant consequence, and providing integrated cyber 
capabilities to support military operations, it will continue to enable 
its cyber forces that focus on producing and defending against physical 
effects produced through cyberspace. To that end, DoD is leveraging 
existing cyber test and training ranges, as well as investing in 
additional cyber ranges to provide needed capacity. The growing use of 
cyber-enabled hybrid warfare by our adversaries is indeed a significant 
concern that the Department seeks to address, including through 
cooperation with partners and allies that have developed capabilities 
in mitigating this threat. I appreciate your continued support for the 
Department's efforts in this area.
                                 cv-22
    Question. The CV-22 has become a critical platform for AFSOC due to 
its speed, range, cargo capacity, and vertical takeoff ability. As the 
demand signal for special operations continues to grow, are there plans 
to purchase additional CV-22s to support ongoing and future operations 
in the Middle East and specifically Africa?
    Answer. The Air Force Special Operations Command CV-22 continues to 
prove itself world-wide as highly effective and survivable for 
operations, including those in the Middle East and Africa. The Air 
Force does not currently have plans to purchase additional CV-22s, and 
has not allocated funding toward doing so.
                             reserve cv-22s
    Question. Does AFSOC have sufficient attrition reserve CV-22s in 
its inventory to ensure operations are not negatively effected in the 
event of a loss of an aircraft?
    Answer. The Air Force recently increased its requirement for 
reserve attrition aircraft from one to four aircraft, which gets closer 
to historical programmatic planning numbers. Two of these attrition 
aircraft have been funded to date, but none have been fielded since 
they were procured late in production. We will continue to monitor 
attrition rates to assess the adequacy of the Air Force's requirement.
                           additional cv-22s
    Question. If funds were allocated to purchase additional CV-22s, 
would the department assign them to the Air National Guard until they 
are required for operations?
    Answer. The Air Force is not programming for any additional CV-22 
aircraft. However, the CV-22 CPD was recently updated to increase the 
program of record from 50 to 54 aircraft to accommodate Congressional 
adds for attrition reserve aircraft. We have received Congressional 
adds for two attrition reserve aircraft to date (one in fiscal year 
2016 and one in fiscal year 2017).
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                   joint comprehensive plan of action
    Question. Secretary Mattis and General Dunford, do you think it is 
in the U.S. interest to continue implementing the Iran nuclear 
agreement? What are the risks to U.S. national security and our allies' 
security if the agreement is scrapped? What would you judge to be the 
impact on Iranian behavior and U.S. security interests of new 
unilateral U.S. sanctions that--while targeting Tehran's ballistic 
missile program, support for terrorism, and human rights violations--
have the effect of blocking third party companies and financial 
institutions from doing business in Iran that is allowed under the 
JCPOA?
    Answer. Implementation of U.S. commitments to the JCPOA is in the 
interest of the United States. We must work closely with the other 
JCPOA participants to enforce strict implementation by Iran. There are 
three primary risks to U.S. national security and our allies' security 
if the JCPOA is scrapped. First, the credibility of the United States 
would be damaged if we walk away from a political arrangement finalized 
by a president of the United States. Second, the JCPOA is not a 
bilateral deal between the United States and Iran, and the United 
States will risk isolating itself among our P5+1 partners, including 
with our most important allies, if we unilaterally take action to 
undermine or collapse the deal. This would reduce our effectiveness 
against Iran and diminish our leverage partner support for other 
priority policies such as Russia and ISIS. Third, Iran would no longer 
be compelled to uphold its commitments to limit its nuclear program and 
could take steps to restore certain activities and capabilities that 
would lower Iran's breakout timeline to obtaining enough nuclear 
material for a nuclear weapon. This could prompt an escalatory cycle 
and provoke conflict. The sum total of these effects lead me to assess 
that such a step would not be in interest of the United States or its 
partners. The United States and its allies sanction Iran's Islamic 
Revolutionary Guard Corps, missile program, support to terror, and 
human rights abuses under a host of existing unilateral and 
multilateral authorities. While sanctions remain a critical U.S. 
foreign policy tool as we push back on Iran, I do not think additional 
U.S. unilateral sanctions against these areas will have the desired 
impact. In addition, new sanctions that impede Iran's ability to engage 
in JCPOA-compliant business activity could put the United States in 
non-compliance with its commitments. As the Administration completes 
its Iran strategy review, we will consult with the Congress when and if 
we collectively assess new sanctions will support our goals.
                 nuclear arsenal and non-proliferation
    Question. Secretary Mattis, first, do you believe that the 
resumption of nuclear testing is required to maintain a safe and secure 
nuclear deterrent, and if so, do you believe such a resumption would 
encourage other countries to do the same? Secondly, do you believe that 
nuclear weapons have a first-strike, offensive purpose or only the sole 
purpose of deterrence?
    Answer. Montenegro is 800 miles from Russia and poses no 
geopolitical threat to that country. Despite this, Russia has actively 
opposed Montenegro's NATO bid and has taken measures to shape public 
opinion against NATO throughout the Western Balkan region. Russia also 
interfered in Montenegro's October 2016 national elections. 
Montenegro's NATO membership would provide a powerful rebuke to 
Russia's malign influence in the Western Balkans and would demonstrate 
that no third country has a veto over NATO's decision to admit new 
members. Montenegro's NATO membership would also confirm that all 
nations in the region are free to choose their own alliances and 
partnerships without fear of outside coercion and intimidation.
                         national guard funding
    Question. In the committee report for the fiscal year 2017 Military 
Construction and Veterans Affairs appropriations bill, I helped author 
a provision requiring the Army to submit a plan to increase funding for 
Army National Guard Readiness Centers, so many of which are in a state 
of disrepair. I believe we need to do a better job of prioritizing 
resources--whether it's funding for building improvements, modernizing 
equipment or training--to our citizen soldiers in the Guard to improve 
their readiness. Can you talk about how the fiscal year 2017 
supplemental and the fiscal year 2018 request will adequately fund the 
men and women of the Wisconsin National Guard and throughout the 
country?
    Answer. The Department's fiscal year 2017 Request for Additional 
Appropriations (RAA) and fiscal year 2018 budget request focus on 
improving readiness and balancing the force. The National Guard remains 
an important component of military readiness, and the additional 
resources provided in the fiscal year 2017 appropriations act and 
fiscal year 2018 budget request support members of the National Guard 
in Wisconsin and across the nation. For the Army National Guard (ARNG), 
the fiscal year 2017 appropriations act provided $153.5 million to 
support the pay and training for the additional 8,000 authorized end 
strength. In addition, Congress added $20 million to assist in the 
ARNG's readiness recovery. Of the Department's RAA, the ARNG received 
$87.9 million in additional operation and maintenance funding to 
conduct additional ground and air training exercises and to repair 
additional aircraft. The ARNG's fiscal year 2018 operation and 
maintenance budget request of $7.307 billion includes an additional $38 
million to improve ground and air readiness by conducting additional 
training events and flying more hours. Also, there is a $59 million 
increase in force protection upgrades to improve off-installation 
facility security following the 2015 Chattanooga shootings, and $47 
million in additional resources to improve facilities sustainment. For 
the Air National Guard (ANG), the fiscal year 2017 appropriations act 
provided an additional $17 million to improve ANG readiness. Of the 
Department's RAA, the ANG received $23 million for weapons system 
sustainment. The ANG's fiscal year 2018 operation and maintenance 
budget request of $6.940 billion includes an additional $36 million to 
fund additional contractor logistics support on various aircraft and 
systems. In addition, there is an increase of $74 million to repair and 
modernize ANG facilities.
                                 ______
                                 
         Questions Submitted to General Joseph F. Dunford, Jr.
            Questions Submitted by Senator Susan M. Collins
       national guard readiness and the maine air national guard
    Question. The Maine Air National Guard in particular is in a very 
strategic location, and has been used as a workhorse of the operational 
reserve--for example, the 101st Air Refueling Wing in Bangor saw the 
largest number of pilots or maintainers it has ever deployed last year, 
as well as the greatest number of flying hours ever, with no slow down 
in sight due to the ongoing operations in support of defense missions. 
How does the fiscal year 2017 supplemental submission to maintain the 
readiness of crucial units like the 101st Air Refueling wing in Bangor, 
which are operational in a manner that is on par with active duty 
units?
    Answer. We appreciate congressional support for the fiscal year 
2017 supplemental submission to address readiness shortfalls in the 
Joint Force. The Maine Air National Guard continues to provide critical 
mission capability and capacity to meet the ops tempo the Joint Force 
faces. The Joint Chiefs and I remain committed to ensuring that funding 
maintains the crucial units in the aviation support field. The Services 
and National Guard Bureau would be best suited to provide further 
detail to address your concerns on the Maine Air National Guard.
    Following 15 years of supporting contingency operations, Air 
National Guard (ANG) units face a steady operational tempo similar to 
that of the active Air Force. Programming submissions, such as that for 
fiscal year 2017, are calibrated to rectify readiness issues with the 
goal of facilitating future deployments. Readiness will increase 
indirectly as a result of the across-the-board funding requests: (1) 
Increased recruiting and retention funds ($67 million), will permit us 
to retain existing personnel and recruit replacement personnel as 
personnel complete service obligations and retire, (2) Increased 
Civilian and Military pay raises (from 1.6 percent to 2.1 percent) and 
Medicare-Eligible Retiree Health Care Fund ($37.0 million) will support 
retention. The ANG also requested $40 million in additional funds for 
sustainment of the ANG KC-135 fleet. Requested increases in upgraded 
communications infrastructure, facilities construction, support 
vehicles and peculiar support equipment will ensure that our ANG airmen 
and technicians have adequate support to do their jobs efficiently and 
effectively. The presence of OCO funding allows the Air Force to 
directly fund many of the additional costs of using the Air National 
Guard as an operational reserve and the high operational tempo at the 
101st Air Refueling Wing. Adequate OCO funds reduce the possibility 
that local unit readiness funds will be siphoned off to support 
operations mission.
                            naval shipyards
    Question. General, Maine is home to the Portsmouth Naval Shipyard. 
That's one of our public shipyards. And it's been called the gold 
standard, which we're very proud of. And that shipyard, and indeed all 
of our public shipyards, have major infrastructure needs to prevent 
significant negative impacts to fleet readiness and operational 
availability over the next 30 years. It's my understanding that the 
Navy is developing a plan for shipyard dry-dock recapitalization. Could 
you give us some sense of when we can expect to receive that plan?
    Answer. The Navy is currently investing in improving productivity 
and maintaining capability across all public shipyards. While each 
shipyard has a specific recapitalization plan, Naval Sea Systems 
Command (NAVSEA) is working on a consolidated master shipyard plan and 
is estimating a delivery date to Navy in the fall of 2017 for review 
and approval. Once approved, this plan will be delivered to members of 
Congress.
                                 ______
                                 
                Question Submitted by Senator Roy Blunt
  active protection systems (aps)/eastern europe & russian aggression
    Question. Secretary Mattis and General Dunford, as you are well 
aware, Russian aggression in Eastern Europe is a top concern among many 
of our allies in the region. The Army has been working on active 
protection systems (APS) to meet current threats by our troops. In 
April 2016--the Army responded to a letter from me that it was ``moving 
rapidly to evaluate selected mature'' APS technologies on an 
``accelerated timeline.'' APS technology is already fielded and combat 
tested, with the Israelis successfully deploying the Trophy APS system. 
However, according to open source and Army statements, the current APS 
developmental program of record, (Modular Active Protection Systems or 
MAPS), is on a timeline to try and field a system in 5--10 years. Thus, 
I am concerned that we are way behind the threat. There was no funding 
requested in the fiscal year 2017 Supplemental submitted last week. My 
interest is to help the Army achieve its stated objective to field 
these systems as rapidly as possible--we cannot wait any longer given 
the threat in multiple theaters. I appreciate your support in general 
for meeting the threat, but we really must work to field this as soon 
as possible. Given this reality, what is the plan to transition from 
testing these systems to procuring them this year?
    Answer. The Army anticipates initial fielding of an ABCT APS 
capability by fiscal year 2020. The Army is assessing technical 
maturity, performance, and suitability of three Non-Developmental Item 
APS in order to support a 1Q fiscal year 2018 decision on whether to 
pursue an accelerated timeline.
                                 ______
                                 
               Question Submitted by Senator Jerry Moran
                              cyber forces
    Question. Cyber force missions are growing, and it is clear that 
cyber forces need to increase throughout the services. Unfortunately, 
there exists a training backlog that prevents cyber warriors from 
getting the training they need in a timely manner. What options are 
being pursued to alleviate this backlog? Additionally there are so few 
training spots available that this backlog becomes worse in the Guard 
and Reserve components--are you considering making more training 
opportunities available for those serving in the Guard and Reserve who 
wish to pursue cyber missions?
    Answer. The Department requested an additional $22.1 million in its 
amended fiscal year 2017 budget request to address cyber training 
capacity shortfalls. These resources will allow USCYBERCOM and the 
Services to address training capacity requirements and readiness of 
forces. In the longer term, the Department is implementing a Cyber 
Mission Force (CMF) Training Transition Plan which will shift CMF 
individual work role training from U.S. Cyber Command to the Services 
over the next three fiscal years. This plan takes advantage of cyber 
training pipeline growth currently underway in each of the Services and 
includes optimizations such as enhanced equivalency credit 
opportunities for pre-existing expertise that are of particular value 
to Guard and Reserve forces who can directly access expertise in the 
private sector. Cyber training opportunities for Reserve Component and 
National Guard members will continue. In fact, the Army and Air Force 
are building additional training capacity to accommodate increase 
Reserve/Guard participation. The National Guard Bureau expects to have 
adequate growth in their training capacity to sustain their cyber 
requirements.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                          information warfare
    Question. How serious of a threat is state-sponsored information 
warfare to our own national security and that of NATO members? In what 
ways can an adversary benefit from fierce division within American 
politics?
    Answer. State-sponsored information warfare is a serious concern 
for our national security, as well as that of our NATO Allies. A number 
of countries around the world, especially Russia and China, have 
developed the doctrine, strategies, and tools to conduct information 
warfare. There is a strong awareness around the world that advanced 
societies, especially the U.S., are heavily dependent on open, and 
potentially vulnerable information systems. Our connectivity and ever 
growing dependence on technology will make us increasingly vulnerable 
to a variety of information warfare. The use of information warfare in 
spreading propaganda creates the ability for foreign powers to create 
division within our governing systems.
                             national guard
    Question. The Vermont Air National Guard's F-16s returned from U.S. 
Central Command at the end of last month, having deployed to support 
coalition operations against ISIS. We Vermonters are very proud that 
they answered the nation's call very quickly and with great success. 
Can you address what it means to have an ``operational reserve'' where 
the National Guard performs pre-planned combat missions alongside 
active forces rather than trains as a ``strategic reserve,'' and will 
future requests from the Department plan and budget for deployment of 
the reserves?
    Answer. The Vermont Air National Guard is most certainly in the 
fight. Since 2004, the Vermont Air National Guard has had five 
successful combat deployments in addition to providing forces 
supporting military operations. The contributions of our National Guard 
are critical to the nation's defense both at home, and abroad. The 
National Guard will remain an integral part of the Total Force and is 
prepared to support both large-scale and contingency operations as 
required. The DoD intends to continue both planning, and budgeting, to 
ensure responsive, and ready, guard forces.
                 comprehensive foreign policy approach
    Question. One of your predecessors as Chairman of the Joint Chiefs 
of Staff--Admiral Mike Mullen--frequently warned about an over-reliance 
on the military in U.S. foreign policy. While serving as Chairman, 
Admiral Mullen took the extraordinary step of sending a letter to 
Congressional leadership warning about budget cuts to international 
affairs, with a handwritten note at the end stating, ``The more 
significant the cuts, the longer military operations will take, and the 
more and more lives are at risk!'' Do you share Admiral Mullen's 
commitment to a comprehensive approach to foreign policy that includes 
strongly funding the State Department and USAID alongside the U.S. 
military?
    Answer. The United States is a global power because of all elements 
of our national power, not just one or even a few. I believe ADM Mullen 
correctly observed that our foreign policy is most effective when we 
apply our national power comprehensively, which means utilizing our 
diplomatic and economic clout as well as our military capabilities. I 
do share his commitment to a comprehensive approach to U.S. foreign 
policy and his observation of the importance in fully resourcing the 
State Department and USAID.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                        discussions with russia
    Question. It was reported that earlier this year that you met with 
your Russian counterpart in Azerbaijan, and that follow-up discussions 
occurred on March 7th. What was discussed during those and any 
subsequent meetings?--Did you or your counterparts discuss partnering 
in Syria?--Did you or your counterparts discuss any issues regarding 
any nuclear treaties, including the INF and New START treaties?--Was 
there any discussion about a future political solution in Syria and the 
future of Assad in any potential political solution?
    Answer. During my initial meeting with General Gerasimov in Baku, 
Azerbaijan and follow on meeting in Antalya, Turkey, we discussed a 
range of issues pertaining to enhancing operational safety and military 
deconfliction. These interactions have contributed to military safety, 
mutual understanding, and minimizing the prospects for misperception 
and unintended consequences, to include in our respective Syria 
operations. We did not address nuclear arms control compliance issues. 
We also did not discuss partnering in Syria or political solutions for 
Syria.
                             networked uavs
    Question. Does the Department of Defense have any intelligence 
about whether these [off-the-shelf] UAVs could be networked to conduct 
hive attacks against U.S. or coalition assets?
    Answer. We will provide you a fuller answer separately in 
classified channels.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                        u.s. sanctions on russia
    Question. First, do you support maintaining U.S. sanctions on 
Russia related to its illegal annexation of Crimea and invasion of 
Eastern Ukraine until Moscow fully implements its obligations under the 
Minsk Agreement? Second, given your testimony regarding Russian 
aggression in the cyber and information domains, do you also support 
maintaining U.S. sanctions on Russia related to its interference in the 
2016 U.S. election? And, finally, what signal would lifting any of the 
aforementioned sanctions send to Russia about the costs of its illegal 
behavior and to our allies about our commitment to their security?
    Answer. I support the implementation of current U.S. policies 
designed to address Russian malign and destabilizing activities and 
encourage realignment with long-standing international norms of 
behavior. I defer to the Department of State to address the prospective 
foreign policy implications of reversing existing policies.
                   joint comprehensive plan of action
    Question. Secretary Mattis and General Dunford, do you think it is 
in the U.S. interest to continue implementing the Iran nuclear 
agreement? What are the risks to U.S. national security and our allies' 
security if the agreement is scrapped? What would you judge to be the 
impact on Iranian behavior and U.S. security interests of new 
unilateral U.S. sanctions that--while targeting Tehran's ballistic 
missile program, support for terrorism, and human rights violations--
have the effect of blocking third party companies and financial 
institutions from doing business in Iran that is allowed under the 
JCPOA?
    Answer. I believe it is in the nation's interests to continue 
implementing the Iran nuclear agreement. Militarily, the JCPOA remains 
the most durable means of preventing Iran from acquiring a nuclear 
weapons capability. If the United States scraps the deal, Iran could 
respond by re-starting its quest for nuclear weapons. A nuclear armed 
Iran would further destabilize the entire Middle East and could 
precipitate a regional nuclear arms race or regional war. I defer to 
the Department of State to address the prospective foreign policy 
implications of scrapping the deal.
                 domestic shipbuilding industrial base
    Question. I'm proud to represent the approximately 2,000 workers at 
Wisconsin's Marinette Marine shipyard, as well as thousands of other 
hardworking Wisconsinites throughout the supply chain. In this regard, 
I completely agree with President Trump's mantra of ``Buy American, 
Hire American,'' and I'd like to work with the administration to carry 
it out. What is your assessment of the strategic importance of 
strengthening the domestic shipbuilding industrial base in the near-
term to ensure that an appropriately skilled workforce, as well as the 
yard and supplier capacity, is available to help the Navy affordably 
meet a possible future 355-ship target?
    Answer. U.S. national strategy relies on a strong and capable Navy 
and our shipbuilding community has long been a strategic pillar in 
maintaining our naval fleet. The Navy works closely with the 
shipbuilding industrial base to level load work, maintain competition, 
and increase efficiency and affordability. One reason the Navy remains 
actively engaged with industry is to ensure that an appropriately 
trained work force, as well as yard and supplier capacity, are 
maintained. The Department of Defense recognizes that the skills and 
infrastructure capacities required to support the development and 
sustainment of our naval force is not developed overnight and, if 
allowed to atrophy, can take a long time to regenerate. The Navy will 
continue to actively work with the industrial base to manage an 
equitable sharing of any future shipbuilding requirements. Although the 
2016 Force Structure Assessment validated a requirement for 355 ships, 
the Navy's first priority is to recover readiness in order to operate 
and maintain the ships and aircraft we currently have and to ensure 
they reach the end of their service lives.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Until then, the Defense Subcommittee will 
reconvene on Wednesday, March 29, at 10:30 a.m., to receive 
testimony on the Defense Health Program. Until then, the 
subcommittee stands in recess.
    [Whereupon, at 12:10 p.m., Wednesday, March 22, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 29.]
</pre></body></html>
